<html>
<title> - COOPERATIVE RESEARCH AND HOW IT RELATES TO THE REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
COOPERATIVE RESEARCH AND HOW IT RELATES TO THE REAUTHORIZATION OF THE 
       MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT
=======================================================================





                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

               December 11, 2001 in Ocean City, Maryland

                               __________

                           Serial No. 107-79

                               __________

           Printed for the use of the Committee on Resources






 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 _______

                       U. S. GOVERNMENT PRINTING OFFICE
76-595                         WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on December 11, 2001................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Colbourne, Jack, Sr., President, Colbourne Seafood, Inc......    46
        Prepared statement of....................................    47
    Harrington, Kerry F., Commercial Fisherman...................    52
        Prepared statement of....................................    54
    King, Howard, Director for Management and Development, 
      Fisheries Service, Maryland Department of Natural Resources    42
        Prepared statement of....................................    45
    Lent, Dr. Rebecca, Deputy Assistant Administrator for 
      Regulatory Programs, National Marine Fisheries Service, 
      National Oceanic and Atmospheric Association, U.S. 
      Department of Commerce.....................................     4
        Prepared statement of....................................     7
    Mathias, Hon. Jim, Mayor, Ocean City, Maryland...............     1
    Novotny, Richard, Executive Director, Maryland Saltwater 
      Sportfishermen's Association...............................    48
        Prepared statement of....................................    50
    Richards, Dr. R. Anne, Fishery Research Biologist, Monkfish 
      Cooperative Survey, Northeast Fisheries Science Center, 
      Woods Hole, Massachusetts, National Marine Fisheries 
      Service, U.S. Department of Commerce.......................    18
        Prepared statement of....................................    20
    Sissenwine, Dr. Michael P., Director, Northeast Fisheries 
      Science Center, Woods Hole, Massachusetts, National Marine 
      Fisheries Service, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................    10
        Prepared statement of....................................    12
Additional oral comments presented for the record:
    Carper, Chip, Hebron, Maryland...............................    68
    Eutsler, Jeffrey S., Berlin, Maryland........................    40
    Golden, Joseph R., Berlin, Maryland..........................    69
    Hawkins, Capt. Monty, Berlin, Maryland.......................    65

















 OVERSIGHT FIELD HEARING ON COOPERATIVE RESEARCH AND HOW IT RELATES TO 
 THE REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
                             MANAGEMENT ACT

                              ----------                              


                       Tuesday, December 11, 2001

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                          Ocean City, Maryland

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., in the 
City Council Chambers, City Hall, 301 Baltimore Avenue, Ocean 
City, Maryland, Hon. Wayne Gilchrest [Chairman of the 
Subcommittee] presiding.
    Mr. Gilchrest. If I could have your attention just for a 
second, Mayor Mathias is here this morning, and he wants to 
welcome all of us and say a few words about the beautiful 
weather we are having today.
    [Laughter.]
    Mr. Gilchrest. Mr. Mayor.

 STATEMENT OF THE HONORABLE JIM MATHIAS, MAYOR OF OCEAN CITY, 
                            MARYLAND

    Mr. Mathias. What is that stuff anyway?
    [Laughter.]
    Mr. Mathias. I just want to take the opportunity, first of 
all, to welcome, Congressman, all of the folks. It makes you 
know how important fisheries are.
    Would you like for me to use the microphone? I can do it 
that way. Are these turned on yet? Yes, that works.
    Again, I just wanted to welcome you, Mr. Congressman, and 
all of the folks and let you know how important the fishery is 
to us in Ocean City, a balanced fishery, a recreational 
fishery, as well as commercial fishery.
    And if you look around this building, I am very proud for 
the town to host you here today because we are actually 
refurbishing this building. This building was built in 1915, 
back in the time when fishing was the foundation for Ocean 
City. And a lot has changed since then, but one thing does 
remain constant, and that is the value that we put on fishing 
here, the value that we put on families in Ocean City.
    I am particularly proud to host you this year because Ocean 
City became an All America City this year, and I thought when 
we were down there in June that I and we understood what an All 
America City was all about. But it took on an entirely 
different meaning 3 months ago on September 11th.
    And as we gather here today on that anniversary, as we 
begin to do our daily work, I would like to ask for a moment of 
silence for all the victims and the families and the folks who 
have been affected and continue to be affected. Because as we 
all know and the Congressman knows, as he fought in Vietnam for 
our freedoms, freedom is not free, and you never know when you 
have to make that contribution to keep freedom the foundation 
of our country.
    And if we could do that today in this building that is 
storied in our American history and Ocean City history, I would 
be very proud.
    [Pause.]
    Mr. Mathias. We ask that God be with the families and allow 
those families of the victims to understand that their lives 
were not in vain, and our military that are out today across 
the world, continuing to insure our freedoms, liberty, and 
justice, we ask that God travel with them, be with them and 
their families throughout this time and throughout our holiday 
season.
    And I ask that we be enlightened today with our judgment 
and wisdom in order to protect our fisheries and allow both the 
recreational opportunities and the commercial opportunities to 
abound.
    God bless you. Have a wonderful holiday season. We are 
proud to have you in Ocean City, and enjoy yourself.
    Thanks.
    Mr. Gilchrest. Thank you, Mr. Mayor.
    [Applause.]
    Mr. Mathias. Thank you, Jim.

      STATEMENT OF THE HON. WAYNE GILCHREST (CHAIRMAN), A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order.
    I want to thank all of you for coming this morning and for 
the witnesses that have traveled here to Ocean City.
    A short follow-on to the Mayor. The President spoke this 
morning in the White House on the issue of September 11th and 
on the issue of America's effort and resolve to eliminate the 
terrorists not only in Afghanistan, because it will not end in 
Afghanistan, but throughout the world wherever there are 
terrorists who will cause the kind of mass destruction and fear 
and sorrow that we saw just a few months ago.
    And it is difficult for us to understand the mindset of the 
madness that perpetrates those types of barbaric acts, and we 
may never comprehend that type of mentality. But we will and we 
do understand unity of purpose to bring peace and justice to 
this community, this international community.
    And the President spoke eloquently this morning, as did the 
Mayor of Ocean City, for us to keep those thoughts in mind and 
go about our responsibilities and duties and life with a sense 
of quiet resolve that we will prevail.
    This morning's hearing, the purpose of our hearing is to 
gather information about the Magnuson-Stevens Act, and some 
time in the spring timeframe is our best guess that we will on 
the House side reauthorize the Magnuson Act.
    For the past number of months, basically since January, we 
have been holding hearings on all of the aspects of America's 
fisheries, from essential fish habitat, which some in this room 
this morning have spoken to me about, to the councils and the 
reorganization, to dealing with collecting data, which is much 
of what we will talk about this morning, a whole range of 
issues.
    The purpose of reauthorization the Magnuson Act is to 
insure that the United States can participate in a very 
healthy, viable, profitable fishing industry, whether that's 
the commercial aspect, the recreational aspect, charter board 
captains, et cetera.
    The other purpose is to insure that the areas under the 
jurisdiction of the United States in the oceans remain 
ecologically viable so that when there is a hearing in this 
hearing room in Ocean City 100 years from now, and there likely 
will be and some of your descendants will likely be here for 
that hearing, there will be more fish in the sea than there is 
today.
    And one of the main purposes for this hearing is to 
understand in a cooperative way how the Federal Government, 
namely, National Marine Fisheries Service, the various state 
governments around the country, the various fisheries 
commissions around the country, the commercial fishermen and 
the water men and the recreational fishermen and the charter 
board captains and the scientific community, basically the 
public and the private can join together to work to collect the 
data in a timely fashion, in an efficient way, so that we can 
continue to fish and harvest, have our businesses more 
predictable, have the habitat for the ocean's marine life 
continue to improve.
    This can only happen with a sense of cooperation from 
everybody that is involved in the process, and so this morning, 
while I am going to ask unanimous consent, I do not think there 
will be an objection because you have to be a Member of 
Congress to object.
    [Laughter.]
    Mr. Gilchrest. So I am going to ask unanimous consent that 
my full statement that was very well written be submitted to 
the record, and we will move along here this morning.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of Hon. Wayne Gilchrest, a Representative in Congress from 
                         the State of Maryland

    Ladies and Gentlemen, welcome to the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans' hearing on cooperative research 
issues and the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act.
    In 1996, Congress passed the Sustainable Fisheries Act. This 
legislation required or authorized a number of new initiatives for 
Federal fisheries managers. These initiatives included: describing and 
identifying essential fish habitat, reducing bycatch, and identifying 
and rebuilding overfished fisheries.
    In addition, although not talked about as much as those I just 
mentioned, Congress also gave the National Marine Fisheries Service the 
authority to enter into agreements with private vessels to conduct 
research.
    Due to the limits on the number of fishery research vessels, limits 
on funding, and limits on personnel, the National Marine Fisheries 
Service cannot gather all of the information that fishery managers 
should have when making decisions on harvest levels and other 
management decisions. Congress also recognized that by bringing 
stakeholders into the process of gathering the information on which 
management decisions are made, they would become more a part of the 
management decisions.
    The Subcommittee is now working on the reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act. We have held 
four hearings this year on various aspects of this reauthorization. At 
one of these hearings, we heard testimony on the need for more 
information--not only on individual species, but also on how each of 
these species interacts with others. Without this information, the idea 
of ecosystem-based management will be very difficult.
    So how do we get all of the information the fishery managers need? 
Congress felt that those in the fishery--commercial, charter, 
recreational--as well as those in the academic institutions and fishery 
managers at the state level, should be involved.
    Since the Sustainable Fishery Act passed in 1996 and the authority 
to hire private vessels was enacted, Congress has been interested in 
how this authority has been implemented, how the information gathered 
in cooperative research projects has been used in making management 
decisions, and how this authority works.
    I hope today's hearing will provide an opportunity to hear how this 
authority has been implemented, what changes need to be made to make 
this stakeholder involvement work better, and what new authorities 
should be included in any Magnuson-Stevens Act reauthorization.
    I look forward to having a very frank and useful discussion on 
these issues.
    Before I recognize our first panel, I would like to thank the Ocean 
City City Council for the use of their Council Chambers.
    I would now like to recognize our first panel.
                                 ______
                                 
    Mr. Gilchrest. The Mayor says we can stay as long as we 
want, but there is another meeting here at one o'clock. So my 
guess is we will finish some time between 12 and one.
    The first panel we have this morning, Dr. Rebecca Lent, 
Deputy Assistant Administrator for Fisheries, National Marine 
Fisheries Service; Dr. Michael Sissenwine, Director, Northeast 
Fisheries Science Center; Dr. Anne Richards, principal 
investigator, Monkfish Cooperative Survey, Northeast Fisheries 
Science Center.
    Welcome this morning. We appreciate you traveling to this 
really beautiful town.
    And, Mayor, it is great to be here in December. Not much 
traffic.
    [Laughter.]
    Mr. Mathias. We are working on that.
    Mr. Gilchrest. Basically at a congressional hearing in 
Washington, the audience does not get to ask questions or make 
remarks, but I think what we may do when we are finished with 
the two panels, we will set aside a little time for any 
comments or questions that people in the audience may have.
     And if you have a burning question to a witness, we might 
be a little flexible in that category as well.
    But, Dr. Lent, you may begin.

 STATEMENT OF DR. REBECCA LENT, DEPUTY ASSISTANT ADMINISTRATOR 
        FOR FISHERIES, NATIONAL MARINE FISHERIES SERVICE

    Ms. Lent. Thank you, Mr. Chairman.
    It is nice to be back in Ocean City in the very building 
where we have held a number of public hearings on highly 
migratory species issues and saw some familiar faces out there 
in the constituents here today.
    You have seen the headlines that talk about the conflicts 
between the Fisheries Service and the fishing industry. That is 
part of our regulatory process in our situation.
    The good news is we do have a number of good collaborative 
research efforts going on with the fishing community. They are 
collecting data. They are conducting research on new gear types 
and other kinds of collaborative work. It is being done all 
over the nation.
    Today we have a focus on New England with our two 
scientists here with me today.
    I am going to go over just some of the highlights of the 
program and a couple of the areas outside of New England where 
we are doing work. We have been doing this kind of 
collaborative research since our days at the Bureau of 
Commercial Fisheries and more actively over the last decade.
    Again, the big challenge is overcoming the conflicts that 
are part of our rural and regulatory process and developing 
mutual understanding and trust between fishermen and 
scientists. I know that every time I have been out on a fishing 
boat I have learned a lot, and I know that is true for our 
scientists as well.
    We found out in the years of this program that there is no 
one side fits all. It is different in every region and every 
fishery.
    We have also noted that there are three fundamental 
elements for all of these programs for successful research. The 
first is a good constituent outreach to all of the involved 
constituents.
    Second, very careful development of technical and 
scientific protocols when we are working in these collaborative 
projects, and also using pilot studies to develop good testing 
and refinement.
    So these are some of the three fundamental aspects that we 
are looking at.
    The first time, as you know, we received specific funding 
for cooperative research was in fiscal year 1999 for the 
northeast, and the current and the past fiscal year we did 
receive funding as well for the national program.
    Just doing a quick overview of some of our programs, in 
Alaska we have the sablefish survey that is conducted by the 
Alaska Long Line Fleet. Those vessels are basically chartered, 
but the crew is allowed to keep their catch. This has been done 
for a number of years. These data are used in stock assessment. 
So it is making an important contribution.
    We also are using the fleet's echo sounders in a pollock 
fishery to develop a potential new measure that we can use in 
stock assessment. We will be evaluating that.
    Bycatch, as you know, is a very big issue in fishery 
management. We are working on a halibut excluded device. You 
have heard of the TED. You have heard of the BIRD. Now there is 
the HEAD, and that is being done in the flat fishing codfish 
fishery with our fishermen in Alaska. And this is pretty 
critical to see if we can take care of that bycatch because we 
are subject to an international quota on halibut.
    Another gear research that is underway is with the bottom 
trawlers in Alaska. This is in collaboration with the Navy. As 
you know, habitat is a big part of our work. It is important to 
know the impacts of the trawl fish fishery on the habitat.
    We will be doing some controlled trawling and taking 
measurements, going back to those same areas in future years to 
see what's happened to the habitat there as a result.
    Right here on the East Coast, and I know this is of 
interest to folks like Rich and Mark who were here today. We 
have done the Cooperative Shark Program for a number of years, 
actually nearly 40 years; 6,000 recaptured sharks. This is 
really important information to know where these sharks are 
going, where they are migrating and how much they grow. And we 
have got nearly 7,000 volunteers helping us with this shark 
counting program.
    The highly migratory species tagging program, some of the 
most exciting work we have been doing where we have been 
working in collaboration with recreational fishermen as well as 
commercial fishermen.
    We have had tags that range from the very conventional 
spaghetti tags where you just have the Point A and Point B to 
archival tags and pop-up tags such that you don't have to catch 
the fish again. The tag actually catches, comes up, downloads 
data to the satellites, and you get an E-mail and you find out 
where your fish has been, how much it has gone up and down in 
its behavior.
    This has been really critical for international management. 
We had some very dramatic moments at the international meeting 
last November where we insisted that the Europeans cut back on 
their fishing in the Eastern Atlantic because it is affecting 
our bluefin tuna catches right here, right here in Ocean City.
    And, Mr. Chairman, to complete this quick overview of the 
highlights of the cooperative program, I wanted to let you know 
that we have been working through the Chesapeake Bay office to 
work on projects such as moisture restoration and working with 
our partners, such as University of Maryland, Maryland DNR, 
Atlantic States Cooperative Programs, doing data collection, 
funding a number of projects that are aimed at ecosystem 
research, which is the new push we want to have, is some 
ecosystem management.
    I will just finish up with some of the lessons learned and 
challenges for the future. We know that we are the regulators. 
So it is always going to be a challenge for us to make sure 
that we are doing a good job of reaching out to our 
constituents and working with them.
    We think we can use some of the successful pilots to expand 
the program, work with our constituents, work with our Regional 
Fishery Management Councils to design the kind of research that 
we are going to need and working in collaboration with 
fishermen.
    We are committed to this program, again, not just for the 
science that it provides, but for everything that we learned 
from each other, both ways, the scientists and the fishermen 
working together.
    I thank you, Mr. Chairman, and following the testimony of 
my colleagues, I will be happy to address your questions.
    [The prepared statement of Dr. Lent follows:]

     Statement of Rebecca Lent, Deputy Assistant Administrator for 
    Regulatory Programs, NOAA Fisheries, U.S. Department of Commerce

    Good morning. My name is Rebecca Lent and I am the Deputy Assistant 
Administrator for Regulatory Programs for NOAA Fisheries. Thank you for 
the opportunity to appear before you today. I am pleased to be able to 
share with you some of the programs that we in the National Marine 
Fisheries Service (NMFS) are working on in collaboration with the 
fishing industry as well as with others interested and concerned with 
the future of our living marine resources.
    Despite headlines that may make it appear that the Federal 
government and the fishing industry are often at odds, there are a 
number of areas where scientists, fishing people, commercial vendors, 
and a host of others are working together to gather information about 
fisheries, to survey fishing grounds, and to strengthen the scientific 
basis for managing our Nation's living marine resources. The National 
Marine Fisheries Service has a long history of scientific collaboration 
and is actively pursuing cooperative and collaborative research in all 
regions of the country. In the Northeast, scientists and managers are 
working to develop the mechanisms required and the close collaborative 
relationship with industry and other constituents needed to identify 
and fund cooperative research. This morning you will be hearing much 
more about the New England programs. Dr. Michael Sissenwine, Director 
of the NMFS Northeast Fisheries Science Center, will provide an 
overview of the work ongoing in the Northeast, and Dr. Anne Richards, 
Project Leader for the Monkfish Cooperative Survey, will share her 
experiences in developing a collaborative survey program with industry.
    In my testimony, I will highlight some of NMFS' long standing 
cooperative research efforts as well as outline some new projects under 
development under the newly funded National Cooperative Research 
Program. I also will address some of the key elements of a successful 
and scientifically valid cooperative research program, and touch on 
some of the challenges we are working to resolve on the road to 
effective working relations with industry.
History of Cooperative Research
    Since the days of the Bureau of Commercial Fisheries, and more 
actively over the last decade, NMFS has worked with commercial and 
recreational industry representatives, academic researchers, commercial 
vendors and environmental groups on a variety of approaches for 
involving stakeholders in the collection of data for the purpose of 
improving fisheries management. These efforts have been developed in 
response to local needs and circumstances and have been undertaken in 
virtually every NMFS region across the country. We have learned some 
lessons and we continue to search for improvements in performance.
    We know that involving the fishing community in data collection 
requires cooperation among parties with different interests and, often, 
a history of past conflicts. One of the primary objectives of entering 
into cooperative or collaborative research and data collection 
projects, however, is not only to obtain accurate data but also to gain 
the investment and trust of all participants - scientists, managers, 
and harvesters of the resource - and to build upon that foundation.
    We have learned that the variations across fisheries make it 
difficult to apply standardized approaches across all regions and 
fisheries. We also have learned that improving data gathering 
capability requires some or all of the following elements:
    1) consistent outreach to industry and other interested 
constituents;
    2) careful development of valid technical and scientific protocols; 
and
    3) the testing and refinement of these lessons in well-designed 
pilot studies.
National Cooperative Research Program
    Funding specifically identified for cooperative research within the 
National Marine Fisheries Service first appeared when Congress 
allocated money for the Northeast in fiscal year 1999 as part of 
Disaster Relief money to assist in efforts to involve fishing 
communities in both the planning and conduct of research. To aid in the 
development of a program for cooperation, the Northeast Regional 
Fisheries Office established an Office of Cooperative Programs 
Coordination. At the same time, the New England Fishery Management 
Council established a ``Research Steering Committee'' consisting of 
fishing community representatives, scientists, Council members and 
government officials to set priorities and plan for long-term 
cooperative research efforts. More on the background of the Northeast's 
Cooperative Research Program will be presented later.
    Beginning in fiscal year 2001, NMFS also received specially 
designated funding for a National Cooperative Research Program. The 
program is being developed to continue to expand and refine cooperative 
and collaborative research programs with NMFS constituents to improve 
data collection and analysis, fishing methods and gear technology, 
while building improved working relations with fishing communities. The 
fiscal year 2002 appropriations provides $16.7 million specifically for 
cooperative research programs, of which $2.75 is for the National 
Cooperative Research Program to continue these activities. This 
significant commitment of funding by the Congress further highlights 
the importance of this research.
    To illustrate our cooperative research program, and to showcase 
some of the work done by NMFS scientists in concert with the fishing 
community, I would like to walk you through some of our outstanding 
projects.
Recent and Ongoing Examples of Cooperative Research Programs
    On the West Coast, we have had programs that use commercial fishing 
vessels for data collection for many years. In Alaska, for example, 
annual resource assessment surveys use chartered commercial fishing 
vessels, fishing companies test fishing gear for both commercial and 
Federal work, and government scientists participate in industry-funded 
research. We are also developing a new program thrust focused on 
developing a coast-wide grants program that will be available for 
constituent identified research, information sharing, and gear 
improvement.
    To cite some specific and long standing work, I would like to 
highlight efforts that the Alaska Fisheries Science Center (AFSC) has 
undertaken in recent years. Participation of commercial fishing vessels 
in the Center's annual resource survey effort has long been a keystone 
to annual groundfish stock assessments for Alaska fisheries. Most 
recently, the industry is involved in identifying and participating in 
both sablefish and pollock research projects.
Fish Surveys - Sablefish Survey
    The sablefish survey is an annual survey developed at the urging of 
the Alaska longline fleet. NMFS has been conducting the survey for a 
number of years and fishing vessel owners, captains, and crew have 
worked with NMFS scientists to design the gear and on deck sampling 
procedures. The vessel captains have played a critical role in 
improving the surveys. NMFS charters the vessel but the vessel captain 
and crew are allowed to retain the catch. The data are used in 
preparing annual stock assessments and are used to allocate catch 
geographically. The sablefish effort also involves transcribing the 
voluntary logbook data submitted by the Alaska Longline Fishermen's 
Association, and the Petersburg Vessel Owner's Association into a 
computerized database and aging the sablefish otoliths collected from 
fishermen by the International Pacific Halibut Commission.
Pollock Survey
    For pollock, the At-Sea Processors Association and the Pollock 
Conservation Cooperative initiated an acoustic data collection project 
for pollock using the fleet's echosounders. They funded a collaborative 
project with scientists from academia (University of Alaska), industry, 
and the NMFS Alaska Fisheries Science Center. NMFS funding is 
supporting the purchase of acoustic recording equipment which is 
designed to be interfaced with ship board echosounders. The 
collaborative team will be responsible for analyzing the data and 
evaluating the utility of the data collection system (for pollock stock 
assessment and pollock distribution).
    Bycatch research is another ongoing cooperative research effort in 
Alaska. One shining example is the work of Alaska Fisheries Science 
Center scientists and industry on the halibut excluder device for the 
cod fishery.
Halibut Bycatch Reduction Research
    While halibut bycatch in the flatfish and cod fishery is not a 
species-depletion problem, it does draw sharp criticism because it 
reduces the quota available to the halibut longline fleet. 
Collaboration among the Groundfish Forum, Alaska Draggers Association, 
At-Sea Processors Association, and a number of the local commercial net 
builders has resulted in gear designs to reduce the incidence of a 
number of species, e.g., halibut in trawl fisheries, cod in flatfish 
fisheries, and juvenile pollock in pollock fisheries. Prototypes have 
been built and tested under experimental conditions aboard chartered 
fishing vessels under the direction of AFSC scientists. Successful 
designs are then tested under commercial fishing conditions using 
exempted fishing permits in collaboration with Groundfish Forum staff 
and AFSC scientists. The cooperative research funding for the AFSC in 
fiscal year 2001 was targeted at funding a vessel charter and fuel to 
conduct the initial experimental trials of a new design of fish 
excluders for Alaska's trawl fishery.
Bottom Trawl Effects Research
    In another area of gear research, AFSC scientists have been 
studying the impact of bottom trawl fishing on the Bering Sea seafloor 
for the past 4 years in cooperation with commercial trawlers and more 
recently with Groundfish Forum staff. U.S. Navy scientists are also 
participating in this project. The work includes conducting controlled 
trawling over selected stations within long established trawl closure 
areas located in the eastern portion of the Bering Sea. The 
invertebrate catches from the trawl tow are enumerated by species. 
Side-scan traces of the trawl path are collected, the exact position of 
the tow is recorded, and bottom infauna samples are collected. The 
study area will be sub-sampled in future years to document the long-
term recovery of the habitat in addition to the short-term trawling 
effects.
East Coast Ecological Studies
    Both the Cooperative Shark Program and the Highly Migratory Species 
Tagging Program have been ongoing efforts on the East Coast that 
collect data on the ecology of the species.
    The Cooperative Shark Program is carried out under the Northeast 
Fisheries Science Center's Apex Predator Investigations which began in 
1962 with the cooperation of 100 volunteers. Since that time, more than 
149,000 sharks have been tagged and more than 6,000 recaptured through 
the efforts of the now 6,500-strong volunteer network comprised of 
mostly rod-and-reel recreational anglers. The tagging program provides 
useful information on shark movements, migration, age and growth, 
mortality, and behavior for these far-ranging species.
Highly Migratory Species Tagging Programs
    NMFS' Highly Migratory Species (HMS) management program has 
undertaken several tagging programs in cooperation with State level and 
academic researchers that have involved the cooperation of recreational 
and commercial fishermen. In addition to the conventional ``spaghetti'' 
tag programs for large pelagic fishes (operated out of the NE and SE 
Science Centers), the HMS program has incorporated state-of-the-art 
tagging technologies. These technologies include acoustical tags to 
track tunas caught by hook-and-line to investigate post-release 
mortality; archival tags to provide detailed information on bluefin 
tuna movements between initial release and recapture; satellite pop-up 
tags to assess migratory patterns of HMS over predetermined time 
periods that are not dependent on recapture; and, most recently, pop-up 
archival tags to help discern short-term and long-range movements of 
bluefin tuna, spawning site fidelity, and ocean wide stock mixing 
potential. Such ecosystem level tagging research is important for 
improving current HMS stock assessments and formulating international 
management programs to rebuild overfished stocks. The cooperation and 
involvement of recreational vessels, charter boats and commercial seine 
and harpoon boats have greatly facilitated the expansion of tagging 
research.
Lessons Learned and Challenges for the Future
    While many examples of successful cooperative research projects 
exist, not all efforts have succeeded in quelling the tension created 
by NMFS' duel scientific and regulatory roles. The burdens of 
regulatory requirements can put a strain on even the best planned 
cooperative efforts. One of the areas we are working on concerns the 
rules and regulations governing ``exempted or experimental fishing 
permitting'' and ``scientific research.'' We are reviewing our 
regulations and policies to ensure that we have in place the most 
comprehensive, consistent, and yet streamlined procedures for 
undertaking this kind of cooperative research and data collection.
    We are also working to expand the opportunities in cooperative and 
collaborative research by sharing the successes reached in areas such 
as the Northeast and Alaska and using them as pilot programs. We plan 
to continue building upon these efforts in the future.
    We are working to improve the coordination of regional cooperative 
research programs. The communication of lessons learned, and the 
development of scientifically valid protocols are areas that we are 
working to enhance.
    Planning efforts are underway on both Coasts to develop strategic 
plans for both short term projects and long-range programs that involve 
constituents in the design and implementation of research surveys, and 
various types of gear development and conservation engineering efforts.
    In addition, support is required across the country for the 
participation of NMFS scientists in the development of surveys for data 
collection on important species, as well as in the expansion, review, 
and refinement of programs in collaboration with stakeholders. We are 
working to secure the necessary resources to support these efforts.
    NMFS remains committed to cooperative research programs--not just 
for the valuable data and information that are obtained--but, perhaps 
most importantly, for the opportunity provided through this program for 
increased dialogue and understanding between scientists and the fishing 
community.
    Mr. Chairman, this concludes my testimony. Again, thank you for the 
opportunity to be here today. I look forward to answering any questions 
you or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Lent.
    Dr. Sissenwine.

  STATEMENT OF DR. MICHAEL P. SISSENWINE, DIRECTOR, NORTHEAST 
                    FISHERIES SCIENCE CENTER

    Mr. Sissenwine. Yes, Mr. Chairman, thank you for giving me 
the opportunity to testify in support of cooperative research. 
I would like to make a brief oral statement, and I request that 
my longer written testimony be entered into the record.
    My testimony is based on my experience as the Director of 
the Northeast Fisheries Science Center, headquartered in Woods 
Hole, Massachusetts.
    Let me start by repeating Rebecca's comment, Dr. Lent's 
comment, that cooperative research with the fishing industry is 
not a new idea. In fact, in the 1920's and 1930's, scientists 
from my laboratory worked with the fishing industry to 
establish what was known as a study fleet of vessels that 
cooperated to provide detailed information on fishing 
operations.
    I actually have a handwritten log book from the 1930's from 
one of those vessels that is quite interesting to look at.
    In recent years, there has been renewed interest in 
cooperative research for several important reasons. In 
particular, cooperative research can increase the precision and 
expand the scope of NOAA's resource surveys. It can provide 
supplemental information about fishing operations. It can use 
knowledge gained fishing to help design and implement research 
on fish migrations and on bycatch reduction, and it can build 
mutual understanding an respect among scientists and fishing 
people.
    In the northeast region, there are four ways cooperative 
research is planned and implemented. I refer to these as bottom 
up planning among scientists in the fishing industry, the 
research partners program, the New England Consortium 
Cooperative research, and the research set-aside program of the 
Mid-Atlantic Fishery Management Council.
    There are several examples of bottom-up planning among 
scientists in the fishing industry. In the late 1990's, a 
critical research need was to estimate the efficiency of a 
hydraulic dredge used to survey surf clams. A high intensity 
survey conducted by fishing vessels was imbedded within the 
normal National Marine Fishery Service standardized research 
vessel surveys.
    The results of the study were submitted to the Stock 
Assessment Review Committee, which is known as the SARC, which 
is used in the northeast region to peer review all of the 
advice, the stock assessment advice, that is used for fisheries 
management.
    The new assessment showed that the surf clam resource was 
healthy and an increase in the total allowable catch resulted.
    Following this successful cooperative research on surf 
clams, major cooperative surveys were conducted for scallops in 
1999 and in 2000 and for monkfish this year. As a result of the 
scallop surveys, scallopers were able to earn tens of millions 
of dollars of additional revenues, and in fact, made New 
Bedford the U.S. port with the highest gross earnings.
    My colleague, Anne Richards, will tell you more about the 
results of the monkfish survey which was just reviewed by the 
SARC.
    There are several other examples of cooperative research in 
the northeast region, such as work on herring, helix squid, and 
sharks, and currently a cooperative research project concerning 
tagging of black sea bass is being considered, which I 
understand is of a particular interest to the Chairman.
    In addition to these examples of cooperative research, the 
northeast region is fortunate to have a program called the 
Research Partners Program. The partners are the National Marine 
Fishery Service, the New England Fishery Management Council, 
state agencies, the fishing industry, and academics.
    The program has been supported by more than $25 million 
that Congress has made available since fiscal year 1999. There 
are 18 short-term research projects that have been selected for 
funding, and in addition, the Research Partners Program intends 
to support long-term projects on study fleets, industry based 
surveys, and fish tagging.
    Congress has also funded the New England Consortium to 
support cooperative research. Since 1999, $12 million has been 
provided. The consortium is led by the University of New 
Hampshire, and its steering Committee of 25 scientists and 
fishing people select projects.
    The final vehicle to support cooperative research in the 
region is the research set-aside program of the Mid-Atlantic 
Fishery Management Council. The research set-aside program 
allows 3 percent of the total allowable catch of several 
important species to be set aside as compensation for research. 
The program begins this year.
    The more experience we gain with cooperative research, the 
more we learn about how to make it successful. I believe to be 
successful it must be collaborative throughout, from the 
planning right through to the analysis of results. It must be 
conducted by people with open minds. This is not business as 
usual.
    It must be pursued with realistic expectations. It should 
be subjected to peer review. There must be adequate financial 
and personnel resources to support the cooperative research 
without diverting people and resources from ongoing scientific 
programs, and there should be immediate feedback to the 
participants.
    I'd like to conduct my oral testimony by stressing that I 
think there is great potential for cooperative research. There 
is a strong commitment by the National Marine Fisheries Service 
scientists and managers and by the fishing industry. Congress 
has provided funds. Fisheries Management Councils are engaged.
    Cooperative research builds mutual understanding and 
respect. I am optimistic about its future.
    This concludes my oral statement, and I will be happy to 
answer questions later on.
    Thank you.
    [The prepared statement of Dr. Sissenwine follows:]

  Statement of Dr. Michael Sissenwine, Director, Northeast Fisheries 
Science Center, National Marine Fisheries Service, National Oceanic and 
        Atmospheric Administration, U.S. Department of Commerce

    Chairman Gilchrest, Members of the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans, and other participants, it is an 
honor to testify today on the topic of cooperative research. I want to 
thank the Subcommittee for providing me with the opportunity to 
encourage research cooperation among fishing people (both commercial 
and recreational), National Marine Fisheries Service scientists, and 
other scientists. I will testify based on my experience as the Director 
of the NOAA Fisheries, Northeast Fisheries Science Center. The Center's 
headquarters are located in Woods Hole, MA. It also has laboratories in 
Narragansett, RI; Milford, CT; Sandy Hook, NJ; and at the Smithsonian 
Institution in Washington, DC.
    I will address four topics: (1) the history of cooperative 
research, (2) reasons why cooperative research is valuable, (3) 
examples of cooperative research, and (4) success factors for 
cooperative research.
History of Cooperative Research
    In many ways, people who fished were the first fishery scientists. 
There is evidence of fishing in the prehistoric record of humans, as 
well as in the earliest recorded history, such as records from 6,000 
years ago of Phoenicians trapping giant bluefin tuna. Fishing people 
are students of fish distributions, the factors that influence fish 
movements, and what fish eat. They learned long ago that there are 
cycles in the abundance of fish, and they correctly presumed that this 
reflected climate change.
    There are key differences in the ways modern scientists and fishing 
people gather information about fish populations and marine ecosystems. 
Scientists make systematic observations in standardized ways, using 
statistical and mathematical models to interpret them. Additionally, 
they document their observations and results for others to evaluate and 
use, developing a statistically robust and representative database 
describing fish populations over time. Fishing people also use elements 
of these scientific methods, usually informally, but their primary 
reason for doing so is to catch fish. However, since there are many 
more fishing people than scientists, and they spend a tremendous amount 
of time on the water, their contribution to science can be very 
valuable.
    Early fishery scientists were well aware of the importance of 
cooperative research. They learned as much as they could from fishing 
people who, over many generations, had made millions of observations at 
sea. One of the best known scientific works about fish of the Northeast 
region is the book, Fishes of the Gulf of Maine, by Henry Bigelow and 
William Schroeder, published in 1953. The first version of the book was 
published in 1925, and scientists in the Northeast Fishery Science 
Center (NEFSC) have just finished revising and updating it for a new 
edition to be published in the near future. Henry Bigelow and William 
Schroeder were early Woods Hole scientists who recognized the value of 
observations by fishing people, which were documented in their book. 
For example, they wrote:
        ``We wish to express our hearty thanks to the many commercial 
        fishermen and to the many salt water anglers of our 
        acquaintance who have met our inquires in the most cordial way 
        and who have supplied us with a vast amount of first-hand 
        information on the habits, distribution, and abundance of the 
        commercial and game fishes, which could be had from no other 
        source. The preparation of this book would have been out of the 
        question without their help.
    In an attempt to convey the abundance of skates, Bigelow and 
Schroeder wrote:
        ``Again, on a trip to the northeastern part of the bank, 
        September 1929, on the otter trawler Kingfisher, 37 hauls 
        yielded from 0 to 105 skates per haul (total 459) and 42 trawl 
        hauls by the Eugene H, fishing from Nantucket Lightship to the 
        south-central part of Georges Bank in late June 1951 caught an 
        average of 146 skates per haul (total, 6,130 skates) which 
        works out at about 9 to 10 skates per acre.''
    Fishes of the Gulf of Maine is about the natural history of fish, a 
key consideration in sustainable fisheries management. However, fishery 
management also requires stock assessments that track change in fish 
populations and forecast abundance. One of the first stock assessments 
was for Georges Bank haddock. As early as the 1920s and 1930s, Woods 
Hole scientists recognized the importance of systematically documenting 
observations made from fishing vessels for use in assessments. They 
established what was known as a ``study fleet'' of vessels from the 
once mighty Boston haddock fleet. The study fleet was made up of 
selected fishing people who agreed to cooperate with scientists so that 
their catch rates and related observations could be tracked over time. 
The spirit of cooperation was very strong, as indicated by a letter 
written in 1933 by the Captain of the fishing vessel Breeze, who wrote 
``...let us know if you would like any further information, and if our 
present data is proving of any interest. It certainly takes up some of 
my dead time, which is a great help to me.
    Cooperative research between NMFS scientists and the fishing 
industry has been alive and well throughout the 130 years of history of 
federal marine fisheries science. However, it has recently received 
increased emphasis. In the Northeast Region, a very successful 
cooperative survey of surfclams in the late 1990s marked the beginning 
of this new era of cooperative research. The cooperative survey of 
surfclams followed an unsuccessful legal challenge to the NMFS stock 
assessment of surfclams. The cooperative survey clearly demonstrated 
that cooperation between NMFS scientists and the fishing industry was 
much more productive for everyone than was a confrontation. I will 
provide additional information regarding cooperative research on 
surfclams later in my testimony.
Reasons Why Cooperative Research is Valuable
    The cornerstone of stock assessments in the Northeast region is 
long-term standardized resource surveys conducted by NOAA fishery 
research vessels. The Northeast Fishery Science Center has conducted 
these surveys since the early 1960s. Since then, the approach has been 
emulated around the world. The primary purpose of the surveys is to 
track changes in marine ecosystems, including fishery resource species, 
over time. Long time-series of information on trends in marine 
ecosystems are a key to sound, scientifically based stewardship, 
including fisheries management. The importance of long-term 
standardized surveys was again emphasized in discussions among the 
world's leading fishery scientists a few weeks ago at a conference 
sponsored by the new University of Miami Center for Sustainable 
Fisheries.
    Let me emphasize that I do not believe cooperative research can be 
an alternative to, or substitute for, long-term standardized resource 
surveys conducted by research vessels. Fishing vessels are not designed 
or equipped for long-term standardized surveys over vast areas, where 
numerous ecosystem variables are measured simultaneously. It is also my 
experience that the fishing industry's interest in cooperative research 
is generally focused on specific issues that are of current concern. 
However, cooperative research can still make valuable and unique 
contributions to the science underlying fishery management. In 
particular, cooperative research can: (a) be used to increase the 
precision and expand the scope of resource surveys; (b) provide 
supplemental information about fishing operations; (c) use the 
knowledge gained from fishing to help design and implement research; 
and (d) build mutual understanding and respect among scientists and 
fishing people.
    Increasing the precision and expanding the scope of resource 
surveys: Resource surveys conducted on board NOAA research vessels 
cover virtually the entire continental shelf from a depth of 15 meters 
to 200 meters. This is an area of more than 200,000 square miles. 
Hundreds of species are sampled and many ecosystem variables are 
measured simultaneously. By necessity, there is a compromise between 
the comprehensiveness of the surveys (in terms of area and species 
covered, and ecosystem variables measured) and precision of information 
for any specific species and geographic location. At any point in time, 
it is likely that fishery managers will want more precise information 
for a particular species in a specific geographic area than can be 
provided by our broad, multipurpose, ecosystem surveys. However, 
management priorities change over time, which highlights the importance 
of maintaining long-term, multipurpose surveys. Cooperative research is 
potentially a powerful way to fill short-term information gaps without 
sacrificing the long-term benefits of our multipurpose surveys.
    While the Northeast Fisheries Science Center's surveys cover a 
large geographic region, there are still some important geographical 
regions that we do not survey, such as some inshore waters. In 
Massachusetts, we cooperate with the state to survey these waters. 
Other states conduct surveys on their own research vessels. Cooperative 
research with the fishing industry is another option for gaining 
valuable resource survey information inshore, which is an approach 
being pursued in Maine.
    In recent years, fisheries have been expanding to waters deeper 
than those surveyed by the NEFSC. Cooperative research with the fishing 
industry can fill this information gap, as was the case with the 
cooperative monkfish survey. I will discuss this project again later in 
my testimony. Dr. Anne Richards from the NEFSC is also a member of this 
panel, and she will provide you with additional information about the 
monkfish cooperative research from her perspective as a participant.
    Providing supplemental information about fishing operations: Most 
fishing vessels in the Northeast Region (and throughout the country) 
are required to submit logbooks containing data that describe their 
fishing operations and what they catch. While information gathered 
through logbooks is potentially valuable, it also has many 
shortcomings. It is difficult to judge its accuracy. It is not 
practical to collect data on a fine spatial scale, such as the catch at 
each geographic position where fishing takes place (that is, it would 
be burdensome to require such data from all vessels). We use scientific 
observers as an alternative way of collecting high- quality information 
about at-sea activities. While an observer program is an excellent 
approach, its high cost limits the number of fishing trips that can be 
observed.
    Cooperative research can be a good compromise for data collection: 
more precise than logbooks, and less costly than scientific observers. 
Cooperative projects can also collect biological samples from the fish 
that are landed. These samples can be used to track changes in stock 
composition, such things as age composition and growth rates. In the 
Northeast region, we are reviving the idea of study fleets, such as 
those used in the earliest haddock assessments. The approach is to 
identify those people in the fishery who are interested in 
participating, who will provide more and better data than what is 
presently gathered in logbooks. Since it is in everyone's best interest 
to improve the scientific basis of fisheries management decisions, the 
cooperators can be motivated to work together to design a data 
collection and transfer system that is both practical for fishermen and 
useful for science. Fishing industry participants should be provided 
with the needed training and tools (for example, computer software to 
record observations) to be effective collaborators. They should remain 
engaged throughout the process, from planning to the final 
interpretation of results. I will say more about current efforts to 
establish modern study fleets later in my testimony.
    Using the knowledge gained from fishing to help design and 
implement research: The fishing industry has valuable knowledge and 
experience that can make the difference between success and failure for 
some types of research. In particular, research on fish migrations and 
on the performance of fishing gear can benefit from a cooperative 
approach. Successful fishing requires knowledge about fish migrations 
(fishing vessels try to anticipate and follow migrations). Scientists 
and managers want to take more information about migrations into 
account when defining boundaries between management units, or when 
designing area closures to conserve fish. Cooperative tagging studies 
with the fishing industry have the potential to provide such 
information.
    Bycatch that leads to wasteful discarding is one of the most 
perplexing problems facing the fishing industry and fishery managers. 
One potential solution to the problem is conservation engineering: 
designing fishing gear that is selective for target species and results 
in less bycatch. Since the people who make a living by catching fish 
are the experts on the performance of fishing gear, it is our belief 
that cooperative research is the only way to be successful in 
conservation engineering.
    Building mutual understanding and respect among scientists and 
fishing people: I cannot overstate the value of cooperative research as 
a vehicle for sharing knowledge and building mutual understanding and 
respect. When people work together on a problem that they both want to 
solve, they learn from one another and get to know each other. Our 
overwhelming experience has been that people working together learn to 
understand each other's perspectives, regardless of personal 
backgrounds. Owing to this, I believe those who participate in 
cooperative research will be more responsible in fisheries and 
fisheries management for the rest of their careers, regardless of their 
roles.
Examples of Cooperative Research
    In the Northeast Region, there are four ways in which cooperative 
research is planned and implemented. I refer to these as: (1) bottom up 
planning among scientists and the fishing industry, (2) the Research 
Partners Program, (3) New England Consortium Cooperative Research, and 
(4) the Research Set Aside Program of the Mid-Atlantic Fishery 
Management Council. The amount of cooperative research activity in the 
Northeast region is too extensive for me to do it justice in my 
testimony, but I will try to give you a brief introduction.
    Bottom up planning among scientists and the fishing industry: There 
are several important examples of the fishing industry, NOAA Fisheries 
scientists, and academic scientists taking the initiative to plan and 
implement cooperative research to fulfill their mutual desire for more 
scientific information to help solve a fishery management problem. I 
will briefly describe some of these examples.
    In the late 1990s, neither NMFS scientists nor the fishing industry 
was satisfied with the surfclam assessment. The problem was an 
inconsistency between the results from two consecutive NMFS surveys of 
surfclams in the mid-Atlantic area. The fishing industry proposed using 
their vessels in a cooperative research study to investigate the 
inconsistency. The critical research objective was to estimate the 
efficiency of the hydraulic clam dredges used to survey the resource. 
An innovative experiment was designed and implemented. High intensity 
``depletion studies'' conducted by fishing vessels were embedded within 
a standardized resource survey conducted by a NOAA research vessel. 
These depletion studies measured dredge efficiency by tracking the rate 
of decline in the catch rate when fishing tows were repeated in a very 
small area (as small as modern electronic navigation would allow.) The 
more rapidly the catch rate declined, the more efficient the hydraulic 
dredge must be. The actual estimates of efficiency were made using a 
sophisticated statistical model that was developed specifically for 
this cooperative research study. In addition to scientists from the 
NEFSC center, Rutgers University scientists participated in the study. 
The results of the study were submitted to the Stock Assessment Review 
Committee (SARC) used by the Northeast region to peer-review stock 
assessments and prepare fishery management advice. Results of 
cooperative research in the Northeast region (including the sea scallop 
and monkfish cooperative research discussed next) are routinely 
submitted to the SARC for review before they are used as the basis for 
fishery management advice. In the end, there was a new assessment of 
surfclams in which both the fishing industry and scientists were 
confident. The assessment showed that the surfclam resource was 
healthy, and a small increase in the total allowable catch resulted.
    Following the success of cooperative research on surfclams, the 
scallop fishing industry and scientists from the University of 
Massachusetts proposed a survey to estimate the abundance of sea 
scallops inside groundfish closed areas off New England. NEFSC surveys 
showed that the resource had rapidly rebuilt inside the areas on 
Georges Bank and Nantucket Shoals that were closed to groundfish and 
scallop gear in 1994. However, before scallopers could be allowed 
access to these valuable sea scallop beds, more detailed information 
was necessary to devise how, when, where, and for how long an opening 
could occur. First, an estimate of actual biomass was required, as well 
as information on the size composition and spatial distribution of sea 
scallops. This would establish how much could be removed from the stock 
without overfishing. Next, there needed to be an estimate of groundfish 
bycatch that would occur during scalloping and an understanding of 
where the sea scallops were distributed relative to essential fish 
habitat and habitat of critical concern in the closed areas. This would 
establish where and when the scallop fishery could occur. Finally, 
there needed to be an estimate of dredge efficiency--this would govern 
how long an opening was likely to last.
    In the summer of 1999, NEFSC scientists, the scallopers, and 
academic scientists from Rutgers University, the Virginia Institute of 
Marine Sciences, and the University of Massachusetts designed and 
implemented a cooperative survey of sea scallops in one of the Georges 
Bank closed areas. The survey provided the most intense sampling of the 
area to date. The same type of depletion studies that were successful 
for surfclams were conducted as part of the sea scallop cooperative 
research program. All of the scientific objectives of the cooperative 
research were fulfilled. As a result of this work, managers devised a 
controlled sea scallop opening in a portion of the surveyed closed 
area, one that prevented overfishing, avoided impact on habitat of 
particular concern, and limited bycatch so that groundfish stock 
rebuilding was not jeopardized.
    Similar cooperative sea scallop surveys in other groundfish closed 
areas were conducted in the summer of 2000, and additional controlled 
sea scallop openings in these areas were allowed. As a result, the 
industry gained tens of millions of dollars of additional revenues, 
while the sea scallop resource has continued to rebuild to 
unprecedented abundance. In 2000, New Bedford had the highest gross 
earnings of any port in the United States, largely from sea scallops. 
Many people attribute the remarkable turnaround in the fortunes of the 
scallop industry to cooperative research.
    Our most recent experience with cooperative research concerns 
monkfish. Until recently, the monkfish were of minor economic 
importance and most of the catch was not well documented. Owing to 
development of an international market, however, the monkfish fishery 
has become one of the most valuable finfish fisheries in the region. 
Poor documentation of the historical catch made it difficult to 
interpret standardized resource survey data by using the usual stock 
assessment methods. In addition, resource survey coverage was sparse in 
the deep water on the edge of the continental shelf, an area where part 
of the monkfish fleet routinely fishes. As a result of shortcomings in 
other data, the assessment was heavily influenced by the rapid decrease 
in the size of monkfish taken in resource surveys, raising concern 
about whether the multipurpose standardized fishing gear used in the 
federal survey was suited to catching large monkfish. The present 
management plan calls for severe restrictions in the near future in 
order to rebuild the stock, so there was plenty of incentive to 
cooperate on improving the assessment to provide a clearer picture of 
stock status. NEFSC scientists worked with the fishing industry to 
design and implement a pilot survey on a commercial fishing vessel in 
2000, and a comprehensive survey was conducted this year. The SARC just 
completed its review of the results, and found the cooperative survey 
data useful and informative. Specifically, the results helped the panel 
to more precisely assess the current status of the monkfish stocks. I 
will leave it to Dr. Anne Richards, who had first hand experience with 
the monkfish cooperative research, to tell you more about it.
    Cooperative research surveys of surfclams, sea scallops in 
groundfish closed areas, and monkfish are examples of cooperative 
research that has received the most attention, probably because the 
research responded to controversial fishery management problems. 
However, NEFSC scientists and the fishing industry have been, or are, 
involved in several other cooperative research efforts. For example, 
there is an ongoing cooperative research effort to develop acoustic 
survey methods for sea herring; scientists from the State of Maine's 
fisheries agency also participate. NEFSC scientists worked with Rutgers 
University scientists and the fishing industry to study the feasibility 
of ``real time'' fishery management of the Illex squid fishery. NEFSC 
scientists are currently working with the fishing industry to study the 
feeding habits of cod, in order to gain a better understanding of where 
this important species fits in the marine food web. A physical 
oceanographer from the NEFSC is working with the lobster fishing 
industry to deploy environmental sensors on lobster pots. The 
cooperative shark tagging program has been conducted by the NEFSC with 
anglers and commercial fishermen since 1962, resulting in the world's 
largest database on movements of Atlantic sharks. All of these 
cooperative research projects provide valuable information and build 
mutual respect and understanding.
    Research Partners Program: This program is administered by the 
Northeast Regional Office of the National Marine Fisheries Service. The 
other partners are the New England Fishery Management Council, state 
agencies responsible for marine fisheries, the fishing industry, 
academic and private marine science organizations, and the NEFSC. The 
program is supported by more than $25 million that Congress has made 
available to support cooperative research related activity in New 
England since fiscal year 1999.
    The New England Fishery Management Council established a Research 
Steering Committee to develop an overall strategy for cooperative 
research, set priorities, and recommend specific cooperative research 
projects for funding. The Research Steering Committee has14 members 
including fishery council members and staff, NMFS staff, fishing 
industry representatives, environmentalists, a representative of a 
state fisheries agency, and scientists. So far, 18 cooperative research 
projects have been reviewed and recommended for funding by the Research 
Steering Committee. These projects include:
    <bullet> a task force for cod tagging;
    <bullet> a task force for bycatch reduction research;
    <bullet> a task force for study fleets and industry-based surveys;
    <bullet> research on the stock structure of silver hake;
    <bullet> gear selectivity and bycatch reduction for silver hake 
fishing;
    <bullet> shrimp fishing gear selectivity and bycatch reduction;
    <bullet> industry-based inshore survey in Maine;
    <bullet> high resolution industry-based survey by New Bedford 
fishing vessels;
    <bullet> a study of the impact of mobile fishing gear on smooth 
bottom habitat;
    <bullet> design of an internet-based logbook;
    <bullet> planning for a monkfish gillnet survey and study fleet; 
and
    <bullet> consideration of the potential bycatch of cod and haddock 
in a groundfish closed area fishery for yellowtail flounder.
    All of these projects are considered short term. In addition, the 
Research Partners Program intends to support long-term programs for 
study fleets, industry-based surveys, and fish tagging. Planning for 
study fleets is the most advanced of these long-term programs.
    A Steering Committee, made up of scientists, fishing people, 
representatives of the New England Fishery Management Council, and NMFS 
staff is driving the development of a groundfish study fleet that will 
use modern technology to collect, record, and transfer fishery-based 
data. At a workshop in October of this year, the committee and others 
assessed the current state-of-the-art in electronic data capture 
systems and the use of selected industry vessels for the collection of 
high quality fishery-based data. The results of this workshop 
documented the state of such projects throughout the United States and 
in the Canadian Maritime provinces. The Steering Committee is now 
developing three pilot projects to test the feasibility of an 
electronic data collection system (using vessel tracking and other 
technologies to capture timely, high quality data for use in stock 
assessments and fishery management). They intend to begin preliminary 
data collection in Spring 2002.
    Northeast Consortium Cooperative Research: In addition to providing 
funding for the Research Partners Program administered by the Northeast 
Regional Office, Congress has provided $12 million, beginning in fiscal 
year 1999, for cooperative research to be administered by the Northeast 
Consortium. Several years ago, a group of fishing people and academic 
scientists began working together to plan and conduct research on a 
relatively small scale. When Congress provided funding, the Consortium 
was formalized among the University of New Hampshire, University of 
Maine, Massachusetts Institute of Technology, and the Woods Hole 
Oceanographic Institution. A 25-member steering committee of scientists 
(including some from the NEFSC) and fishing people was established to 
recommend projects for funding by the Consortium. The Consortium 
encourages fishing vessels primarily from Maine, New Hampshire, and 
Massachusetts to conduct cooperative research in the Gulf of Maine or 
on Georges Bank. The Steering Committee established the following 
priority areas for cooperative research:
    <bullet> selective fishing gear research and development;
    <bullet> evaluation of closed areas and closed area management 
systems;
    <bullet> fish habitat;
    <bullet> commercial harvest and species sampling; and
    <bullet> oceanographic and meteorological monitoring .
    Sample topics from the 29 projects funded so far by the New England 
Consortium include:
    <bullet> selectivity of demersal hook fishing;
    <bullet> movements of groundfish in closed areas;
    <bullet> cod bycatch reduction in a flounder fishery;
    <bullet> an inshore trawl survey in the Gulf of Maine;
    <bullet> testing low profile gillnets to reduce cod bycatch;
    <bullet> outreach and education in support of cooperative 
research;
    <bullet> effects of using herring for bait on the growth rate of 
lobsters;
    <bullet> comparison of environmental contaminants on Georges Bank 
and Stellwagen Bank;
    <bullet> fishing vessel surveys of coastal herring aggregations; 
and
    <bullet> development of stock assessment methods for the deep-sea 
red crab fishery.
    Research Set Aside Program of the Mid-Atlantic Fishery Management 
Council: To date, most of the funds Congress has provided to support 
cooperative research have been directed toward New England. However, 
the Mid-Atlantic Fishery Management Council and the fishing industry in 
the Council's area of responsibility also recognize the need for more 
research. Therefore, the Council established an innovative way to 
encourage and support cooperative research. It is referred to as the 
Research Set Aside Program.
    The Research Set Aside Program allows up to 3% of the total 
allowable catch of summer flounder, scup, black sea bass, Atlantic 
mackerel, Loligo and Illex squid, butterfish, tilefish and bluefish to 
be set aside as compensation for research. The program was established 
through a Framework action effective 10 August 2001. For the 2002 
fishing year, the Council recommended a 2% set aside for summer 
flounder, bluefish, Loligo and Illex squid, mackerel, and butterfish; 
and a 3% set aside for scup, black sea bass, and tilefish.
    The Council set the following priorities for the first year of the 
program:
    <bullet> bycatch and discard reduction concerning the summer 
flounder, Loligo squid, and scup fisheries;
    <bullet> mesh and gear selectivity for summer flounder, scup, 
squid, and black sea bass;
    <bullet> fishing impacts on habitat;
    <bullet> cooperative stock assessment surveys focusing on summer 
flounder and acoustical methods for mackerel; and
    <bullet> improved recreational fishery data focusing on enhancing 
overall knowledge of recreational fisheries and evaluating the 
effectiveness of recreational management measures and/or data 
collection.
    A call for proposals to respond to the research priorities was 
published in the Federal Register. Thirteen proposals were received and 
reviewed by a panel, including members of the Council's Comprehensive 
Management Committee. Successful proposals should be authorized to 
begin by early 2002.
Success Factors for Cooperative Research
    To realize its full potential, I believe cooperative research must 
be:
    <bullet> collaborative throughout, involving scientists and 
fishing people in defining objectives, planning research, implementing 
research, and analyzing results;
    <bullet> conducted by both scientists and fishing people with 
open-mindedness, a willingness to compromise (that is, participants 
should not expect to do business as usual), and accept that their 
previous views might be incorrect;
    <bullet> pursued with realistic expectations. For example, it must 
be understood that an assessment that depends on a time-series of 
relative abundance data cannot be replaced by a single collaborative 
survey;
    <bullet> subjected to the same degree of peer review as other 
research that supports fishery management decisions (for example, by 
the Stock Assessment Review Committee);
    <bullet> supported by adequate financial and personnel resources 
to plan and conduct cooperative research without diverting resources 
from ongoing scientific programs, such as the long- term standardized 
resource surveys conducted by NOAA research vessels; and
    <bullet> able to provide immediate feedback to participants, who 
then have easy access (such as on web sites) to the data they provided 
or helped to collect, so they can see how it is being used to help 
inform fishery management decisions.
    I would like to conclude my testimony by stressing that I think 
there is great potential for cooperative research to make valuable 
contributions to fisheries management in the Northeast. There is a 
strong commitment to cooperative research by NMFS scientists and 
managers, and by the fishing industry. There are already cooperative 
research successes upon which future successes can be built. Congress 
has provided funds to support cooperative research. Fishery Management 
Councils are actively engaged in planning cooperative research and 
applying innovative approaches for supporting it. State agencies and 
many non-federal scientists (e.g., academics) are also enthusiastic 
about cooperative research. While we should not lose sight of the 
importance of the success factors I listed above, I am optimistic about 
the future.
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any question you or other members of the Subcommittee might 
have.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Dr. Sissenwine.
    Dr. Richards.

  STATEMENT OF DR. R. ANNE RICHARDS, PRINCIPAL INVESTIGATOR, 
   MONKFISH COOPERATIVE SURVEY, NORTHEAST FISHERIES SCIENCE 
                            CENTER.

    Ms. Richards. Yes. I would like to thank you, Mr. Chairman, 
for the opportunity to provide testimony on a cooperative 
research project which has been the focus of my life in the 
past year, which was a comprehensive survey of monkfish along 
the northeast coast of the United States.
    My name is Anne Richards, and I am a research fishery 
biologist with the population dynamics branch of NOAA Fisheries 
in Woods Hole, Massachusetts, and I was the chief scientist for 
this project.
    The cooperative monkfish project grew out of fishing 
industry concerns that there was inadequate scientific 
information to accurately judge the status of the monkfish 
populations, whether they were over fished or depleted. 
Although monkfish are captured in the Northeast Fisheries 
Science Center's ongoing trawl surveys, the net and the fishing 
methods are not designed particularly for monkfish, and so 
their catch rates and relatively low.
    Members of the monkfish industry were eager to participate 
in the scientific process and we scientists at the Northeast 
Fisheries Science Center recognize that this could be a golden 
opportunity to learn a lot more about the biology of monkfish.
    So we entered into an effort to design a survey with the 
industry. The primary goals of this cooperative research survey 
were to conduct a bottom trawl survey to characterize the size, 
age, and sex composition of monkfish all the way from Cape 
Hatteras up through the Gulf of Maine.
    We wanted to estimate the abundance of monkfish in a 
different way than we ordinarily do in our standard surveys and 
also to obtain a better understanding of the population 
dynamics of monkfish that would be able to be applied to stock 
assessment.
    Also we wanted to gain a new basis for interpreting our 
ongoing Northeast Fisheries Science Center survey results for 
monkfish. This survey was jointly designed by scientists and 
industry. The scientists prepared a choice of scientifically 
valid sampling plan which we then presented to the industry, 
and we talked to them about the pros and cons of the different 
types of plans, and then they selected the plan that they 
preferred.
    And then in addition they were able to add their preferred 
sampling locations to the ones that were determined by the 
scientific basis.
    We chartered two monkfish trawlers to conduct the survey. 
One was out of Portland, Maine and the other out of New 
Bedford, Massachusetts. The vessels provided their crew for the 
ship's operations and then the scientists came primarily from 
the Northeast Fisheries Science Center, but also from the 
Massachusetts Division of Marine Fisheries and from Rutgers 
University.
    We conducted a pilot survey a few months before the final 
survey was conducted. A project such as this does present a 
number of challenges, but many of these we addressed with 
additional cooperative research in addition to the standard 
survey tows that we did with the industry.
    And a key issue that needed to be addressed is that fishing 
vessels vary in their capture efficiency. Thus, monkfish catch 
rates for each vessel needed to be interpreted in light of 
comparisons between the vessels and between the different nets 
used by one of the vessels.
    A series of research tows were done to address these issues 
and allowed us a more solid scientific basis for understanding 
the data which came from these diverse vessels and nets. More 
than 9,000 monkfish and more than 16 and a half metric tons of 
monkfish were captured during the 280 tows that were 
successfully completed during the survey. The length of every 
monkfish was measured, and for more than 2,000 of them, samples 
were taken to determine age, sex, maturity, stage of gonadal 
maturation, and stomach contents.
    The results of the survey were used to develop a much more 
comprehensive population assessment for monkfish than had been 
previously possible. This assessment was reviewed about 2 weeks 
ago in the Northeast Fisheries Science Center's 34th stock 
assessment review Committee meeting, and the analyses stemming 
from the cooperative survey provide new options for fishery 
managers and developing improved biological reference points 
among fish management and also suggests avenues for improving 
the performance of the fishery.
    An important additional benefit of the cooperative survey 
was the opportunity to compare the results obtained from the 
fishery vessels with results from our Northeast Fisheries 
Science Center fishery independent trawl surveys. The 
comparisons both validated the Northeast Fisheries Science 
Center's survey data and also suggested directions that we 
could move in to improve our surveys in application to 
monkfish. So it is a long-term benefit of the work.
    A less tangible but extremely valuable benefit also was the 
opportunity to work directly with fishermen. We could see how 
they worked, and we had plenty of time to talk with them out 
there on the bridge between tows and during tows and have long 
discussions, which were very interesting.
    And also, in turn, the fishermen could see how we 
scientists work and that we are making our best efforts to et 
the best science we can to support the fisheries that they care 
so much about.
    So I'd like to summarize by saying that we feel the 
cooperative monkfish survey was very successful. It greatly 
improved our scientific understanding of monkfish. It enhanced 
our ability to draw inferences from our own ongoing surveys at 
the Northeast Fisheries Science Center, and it opened valuable 
lines of communication between scientists and fishermen.
    That concludes my testimony, Mr. Chairman. I would be happy 
to answer any questions.
    [The prepared statement of Dr. Richards follows:]

   Statement of R. Anne Richards, Ph.D., Fishery Research Biologist, 
National Marine Fisheries Service, Northeast Fisheries Science Center, 
                       Woods Hole, Massachusetts

    Thank you, Mr. Chairman, for your invitation to provide testimony 
regarding a recently-completed initiative that brought users of the 
nation's fishery resources into the process of developing and carrying 
out cooperative research. My name is Anne Richards, and I am a research 
fishery biologist with the Population Dynamics Branch of NOAA 
Fisheries'' Northeast Fisheries Science Center, in Woods Hole, 
Massachusetts. I will report on a comprehensive survey for monkfish 
that was conducted in cooperation with members of the monkfish industry 
and in collaboration with state resource agencies and universities.
    Monkfish is currently the single most valuable wild-caught finfish 
in the northeast region of the United States. Monkfish landings were 
relatively low until the late 1980s, when they began to increase, 
reaching levels of 23,000 to 28,000 mt during the mid-1990s (Exhibit 
1). A Monkfish Fishery Management Plan was prepared jointly by the Mid-
Atlantic and New England Fishery Management Councils, and implemented 
in November 1999.
    The cooperative monkfish research project grew out of fishing 
industry concerns that the available scientific information was not 
sufficient to evaluate whether monkfish stocks were overfished or 
depleted. While monkfish are captured in standard Northeast Fisheries 
Science Center bottom trawl surveys, the gear is not designed for them, 
and their catch rates are relatively low. Members of the monkfish 
industry were eager to contribute to the scientific process, and 
scientists at the Northeast Fisheries Science Center (NEFSC) recognized 
that an industry-based survey could provide an excellent opportunity to 
obtain a wealth of information on the biology and population status of 
monkfish. This led NEFSC scientists and a coalition of industry members 
to combine forces to design and conduct a collaborative monkfish 
resource survey.
    The primary goals of the cooperative research program for monkfish 
were (1) to conduct a bottom trawl survey to characterize the size, 
age, and gender composition of monkfish in U.S. waters of the northwest 
Atlantic Ocean, (2) to estimate the relative density and absolute 
biomass of monkfish in the region, (3) to obtain improved population 
dynamics data for use in monkfish stock assessments, and (4) to provide 
a new basis for interpreting NEFSC survey results for monkfish.
    The survey was jointly designed by scientists and industry. The 
NEFSC prepared a choice of scientifically valid survey designs, and 
members of the monkfish industry selected the design to use as a basis 
for the survey. Industry representatives then added a substantial 
number of sampling locations to those that were determined by the 
sampling design (Exhibit 2). Two commercial monkfish trawlers were 
chartered to conduct the survey, the F/V Mary K out of New Bedford, 
Massachusetts and the F/V Drake out of Portland, Maine (Exhibit 3). The 
vessels supplied the crew for the ships' operations and the scientific 
crew came primarily from the NEFSC, the Massachusetts Division of 
Marine Fisheries, and from Rutgers University. A pilot survey was 
conducted in October 2000 to test methods and the full survey was 
conducted during February-April 2001.
    Such a project presents a number of challenges, many of which were 
addressed with additional cooperative research and through the use of 
innovative technology during the survey. For example, fishing vessels 
vary in their capture efficiency owing to such factors as vessel and 
net design, the type of electronic equipment used, and methods for the 
actual fishing operations. Thus, monkfish catch rates for each vessel 
used in the cooperative survey needed to be interpreted in light of 
comparisons between the vessels and between the different nets used by 
one of the vessels. A series of research tows was undertaken during 
April and May 2001 to address these issues. These ``ground-truthing'' 
tows included side-by-side fishing comparisons between vessels and 
nets, tows used to measure the size of the net openings as they fished, 
underwater videos of the capture process, and experiments to estimate 
the absolute efficiency of the nets. The methods used to estimate 
efficiency were similar to the depletion experiment method that Dr. 
Sissenwine described for surfclams and sea scallops in his testimony. 
Electronic sensors were attached to the nets on all the survey tows to 
determine the exact amount of time the net was in contact with the sea 
bed and the precise position of the ship every second during each tow. 
These sensor data, along with the net measurements, allowed us to 
estimate the amount of sea floor swept by each survey tow. Additional 
sensor data provided continuous temperature records along the tow path.
    More than 9,000 monkfish, weighing more than 16.5 metric tons, were 
captured in the 284 tows successfully completed during the cooperative 
survey. The length of every monkfish was measured, and for more than 
2,000 of them, samples were taken to determine age, sex, maturity, 
stage of gonadal maturation, and stomach contents. The monkfish ranged 
in size from 13 cm to 110 cm and in age from 2 to 10 years. The results 
of the survey indicate that the monkfish population consists of between 
66,400 and 90,900 fish, with a total biomass of between 97,600 and 
134,900 metric tons (Exhibit 4). Important biological findings 
included: (1) growth and maturation rates differ very little across the 
entire range sampled, (2) few males older than age 7 were present, 
while females up to 10 years old were found, (3) growth rates are rapid 
and weight gain increases rapidly in older fish, (4) cannibalism 
occurs, but at very low frequency, (5) blackfin monkfish (a highly 
similar species) rarely occurred in the catches.
    The results of the survey were used to develop a much more 
comprehensive population assessment for monkfish than had previously 
been possible. This assessment was reviewed at the NEFSC's 34th Stock 
Assessment Review Committee meeting during November 26-30, 2001. The 
results of the assessment indicated that although fishing mortality is 
greater than the suggested Fmax, mortality rates are not dramatically 
higher than levels that would maximize yield (Exhibit 5). The analyses 
stemming from the cooperative survey provide new options for fishery 
managers in developing improved biological reference points for the 
monkfish Fishery Management Plan, and suggest avenues for improving the 
performance of the fishery.
    An important additional benefit of the cooperative survey was the 
opportunity to compare results obtained from commercial fishery vessels 
with results from NEFSC fishery-independent trawl surveys. The 
comparisons both validated NEFSC survey data and suggested directions 
for improving NEFSC surveys for application to monkfish. For example, 
the size composition of monkfish in the southern management region as 
estimated from the NEFSC winter bottom trawl survey is nearly identical 
to that estimated from the cooperative survey (Exhibit 6), and 
mortality rates estimated from the cooperative survey and from NEFSC 
survey age data were similar. The comparisons allowed us to estimate 
the relative efficiency of the NEFSC winter survey net with the 
commercial net, which will be invaluable in future calculations of 
population size and biomass.
    A less tangible, but extremely important benefit of the cooperative 
survey was the opportunity to work directly with fishermen and to build 
a mutual trust and respect. We were able to see first-hand how they 
operate, listen to their observations on the fish and fishery, and 
discuss our sometimes differing viewpoints. In turn, the fishermen 
would be able to observe how we operate and to see that NOAA scientists 
are making diligent efforts to manage the fisheries so important to 
them.
    An important tool for communicating with industry members not 
directly involved in the survey was a web site we established: (http://
www.nefsc.nmfs.gov/nefsc/READ/popdy/monkfish/). Daily e-mail updates 
from each of the vessels were posted on the site along with ships' 
cruise tracks and current positions from NMFS' vessel monitoring 
system. The web site was followed closely by industry members, and many 
e-mailed follow-up questions and comments to us.
    In summary, we feel the cooperative monkfish survey was very 
successful. It greatly improved our scientific understanding of 
monkfish, enhanced our ability to draw inferences about monkfish from 
ongoing NEFSC resource surveys, and opened valuable lines of 
communication among scientists and fishermen (Exhibit 7).
    Mr. Chairman, this concludes my testimony. I would be happy to 
respond to any questions you or other members of the Subcommittee might 
have.
                                 ______
                                 
    [Attachments to Dr. Richards' statement follow:] 



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Gilchrest. Thank you very much, Dr. Richards.
    I will start with you, Dr. Richards.
    Ms. Richards. OK.
    Mr. Gilchrest. The monkfish survey that you just discussed, 
can that survey be replicated in other fisheries?
    Ms. Richards. Well, similar surveys could be done, yes, if 
they were using the appropriate gears, of course, and survey 
design and so forth.
    Mr. Gilchrest. The commercial or the industry working with 
the National Marine Fisheries Service or scientists, in this 
particular survey you used the commercial vessels?
    Ms. Richards. Right.
    Mr. Gilchrest. How many vessels?
    Ms. Richards. Two vessels.
    Mr. Gilchrest. Two vessels, and you had 280 tows?
    Ms. Richards. Yes.
    Mr. Gilchrest. How long did the 280 tows take?
    Ms. Richards. The survey portion of the project took 
about--it was scheduled for 6 weeks, but because of weather, we 
were down to about 5 weeks.
    Mr. Gilchrest. So the overall survey for the monkfish took 
about 5 weeks?
    Ms. Richards. Right, and then another 3 weeks of gear 
testing.
    Mr. Gilchrest. And you garnered valuable data to assess the 
number of monkfish that are out there so that you could further 
come up with a better management plan for monkfish?
    Ms. Richards. Right.
    Mr. Gilchrest. How often would you have to conduct that 
survey in that way in order to continue to have a management 
plan that would be appropriate?
    Ms. Richards. Well, I don't think you'd have to conduct 
such a survey every year. One of the values I mentioned in my 
testimony is that it gives us a better basis for interpretation 
of our own surveys which are done very year, and so perhaps a 
calibration survey, if you will, with commercial vessels every 
3 years or something like that just would help.
    Mr. Gilchrest. Would there ever be a need to go on a 
charger boat, a recreational boat? Would that be of any value?
    Ms. Richards. For monkfish?
    Mr. Gilchrest. Or for any fishery.
    Ms. Richards. Oh, there could be, I suppose, yes, depending 
on the distribution of the fish and so forth, yes. It could be.
    Mr. Gilchrest. I do have a question from the audience. I 
think what I will do though we will hold off until the end of 
the witnesses, and then at that time write your questions down 
so you insure that I get that question. Otherwise I think it 
would turn into a different kind of hearing. So maybe the third 
session we will take questions from the audience, and I am sure 
the witnesses will still be here.
    Any comment on the monkfish survey, Dr. Sissenwine?
    Mr. Sissenwine. Yes, if you would allow me to elaborate on 
some of the responses that Dr. Richards just gave you. I think 
the design of the monkfish survey, in fact, has a lot of 
similarities to the surveys we conducted for scallops and surf 
clamps. We have learned a lot about working with the industry 
to design these types of surveys, and there certainly is the 
potential for other applications to other species.
    Generally what we view is that the industry based surveys 
of this nature provide a way to look at particular species in a 
more focused area than we are able to look at with our own 
long-term, multi-purpose surveys on NOAA vessels. So we 
consider that these are extremely valuable to supplement and 
give us more precise, more focused information on target 
species, whether it be monkfish or surf clams or scallops.
    But also important to view that they have to be interpreted 
within the context of these much longer term and broader in 
terms of aerial coverage surveys that were conducting on the 
NOAA vessels, and that is why Dr. Richards mentioned that it 
may not be necessary to conduct an industry based survey like 
the monkfish survey every year because we now have that 
information which we can use to improve our interpretation of 
surveys we have been conducting for in some cases nearly 40 
years.
    You asked the question about the potential role 
ofrecreational charter vessels, and certainly they would not be 
a useful tool within the monkfish fishery, but I can think of 
many other alternative types of cooperative research where they 
could be very useful, in particular for various tagging studies 
we are interested in either looking at the migrations of fish 
or estimating the mortality rate of fish based on tagging, 
capture and release of fish.
    In fact, some of the work, a lot of work on sharks and on 
highly migratory species has been done with the cooperation of 
the recreational industry, including the charter boat industry.
    Mr. Gilchrest. Dr. Sissenwine, can you do a similar survey 
that was conducted with the monkfish with black sea bass?
    Mr. Sissenwine. I do not think that that would be an 
appropriate way to address our shortcomings in terms of 
information on black sea bass. We in the science center very 
much would like to see more detailed and comprehensive 
information on black sea bass, but the nature of the 
distribution of the fish probably does not lend itself as much 
to doing a cooperative survey as we think it might lend itself 
to doing a cooperative tagging program with the fishing 
industry.
    And in fact, a technical group of the Atlantic States 
Marine Fisheries Commission, and my scientists participate on 
that group, have been considering and discussing the design of 
the cooperative program to tag black sea bass so that we could 
get an estimate of fishing mortality rate from those tagging 
studies and really very much improve the quality of information 
we have on black sea bass.
    So I do think there is a great need and a great potential 
for cooperative research to really help us on black sea bass. I 
think it would be quite a different design from what we have 
done for the big offshore commercial fisheries.
    Mr. Gilchrest. Do you have some idea of what the progress 
is on the survey for 2002 for black sea bass?
    Mr. Sissenwine. Well, I think the resource surveys that we 
do for multiple purposes that do provide information on black 
sea bass will be conducted as scheduled without any changes in 
plans there, and the results are made available for the fishery 
management process almost shortly after the surveys are 
completed. So there is not really a problem with conducting 
those surveys or providing data.
    The problem is they are just not particularly precise for 
black sea bass. So I think the real issue for 2002 is whether, 
in fact, we can get this cooperative tagging program off the 
ground this spring and summer so that beginning in 2002 we have 
new data.
    With respect to progress on that, there has been a vast 
amount of planning done. There are people who are anxious to do 
it. There have been proposals submitted to get some support for 
the activity to the research set-aside program that I described 
for the Mid-Atlantic Fishery Management Council, which does set 
aside some black sea bass quota for that purpose, and within 
the agency we are also considering options we have for funding 
some of our own people to participate in that activity.
    So while I cannot tell you at this time the deal has been 
signed on the dotted line, I am quite optimistic that by 
various means there will be support for going forward with some 
cooperative research on black sea bass this coming spring and 
summer.
    Mr. Gilchrest. With the tagging program.
    Mr. Sissenwine. Yes, I think that would.
    Mr. Gilchrest. Is there anything that our office can do to 
help facilitate that?
    Mr. Sissenwine. I think your office's encouragement to date 
is helping to facilitate it.
    Thank you.
    Mr. Gilchrest. Dr. Sissenwine, you mentioned a Mid-Atlantic 
Council project in your testimony.
    Mr. Sissenwine. Right.
    Mr. Gilchrest. Could you give us some idea what that 
involves, what fisheries might be a part of that?
    And I assume that Mid-Atlantic Council project has 
something to do with the cooperative arrangements that we are 
talking about here this morning.
    Mr. Sissenwine. Yes. The Mid-Atlantic Council is very 
anxious to encourage cooperative research among scientists in 
the fishing industry. Candidly, they have not been as fortunate 
in terms of Congress directing substantial amounts of money to 
support cooperative research in their area of jurisdiction.
    So I think they have, in fact, been very creative and 
innovative by making the decision that in their fishery 
management process they would set aside up to 3 percent of the 
allowable catch for their most important species to be made 
available to various fishing industry people and scientists who 
propose, successfully propose research projects.
    Mr. Gilchrest. This is the Mid-Atlantic Council?
    Mr. Sissenwine. Yes, yes. And that set aside is from 
important species like surf clams, summer flounder, black sea 
bass, squid species, and several others.
    Mr. Gilchrest. You say they are or they might set aside 3 
percent?
    Mr. Sissenwine. Well, they have authority to. In this 
current year they have decided to set aside either two or 3 
percent depending on the species. They can go up to three, and 
the exact amount differs between different species.
    We do have available those numbers. I just do not remember 
them at this time. And so one of our hopes it that some of the 
set-aside for black sea bass, either the two or 3 percent, 
will, in fact, be made available to support this cooperative 
tagging program I mentioned.
    I am aware that a proposal to do that has been submitted 
and it is under review right now.
    Mr. Gilchrest. I see. Thank you.
    Dr. Lent, you mentioned expanding a pilot program. Could 
you elaborate on that and make some reference to what we would 
need to do to authorize or appropriate sufficient funds to 
insure the expansion of the pilot program?
    And where would the pilot program be?
    Ms. Lent. Thank you, Mr. Chairman.
    What I meant too say is we are looking at pilots as 
possible opportunities that we could do in other places in the 
United States. We already have this program nationwide. So if 
we have some successful pilots that have been conducted, we 
would like to make sure that we try those where we also think 
that they could succeed.
    We are looking at possible expansion of the subject. That 
is always subject of funding, of course, and every year we have 
to make decisions about how we are going to spend this money. I 
think that the main thing is just looking at where we have good 
experiences through pilot programs, where we might try other 
pilots in similar situations in other parts of the country.
    Mr. Gilchrest. So there are no real decisions on where an 
expanded or where a new pilot program might be?
    Ms. Lent. Every year by making the decision on where we are 
going to spend the money that is made available through this 
program we are deciding where we are going to spend the money. 
It could involve spending money on new efforts, depending on 
what the various regions and councils come up with.
    Mr. Gilchrest. Is there any type of cooperative research 
between NMFS and the State of Maryland?
    Ms. Lent. Yes, there are a number of programs. I have some 
lists of actual projects that we have funded through the 
University of Maryland and through DNR. Also in the nature of 
cooperative research, not necessarily under the formal program, 
we have the bluefin tuna tagging program with the State of 
Maryland where we are actually tracking recreational landings 
through taggings. This has been a very successful program that 
addressed a highly contentious issue of in season monitoring of 
international recreational quota.
    Mr. Gilchrest. Are there any new authorities that we should 
consider in order to help enhance this type of cooperative 
research?
    Ms. Lent. Well, the administration is currently developing 
a proposal for amending Magnuson-Stevens, and in looking at 
that--
    Mr. Gilchrest. For what?
    Ms. Lent. In developing a proposal to amend Magnuson-
Stevens, and cooperative research is going to be just one 
aspect of many that we will be looking at. o I do not have any 
specific recommendations regarding legal authorities right now, 
but we will be working with that.
    Mr. Gilchrest. Can you get those recommendations to us in 
the next, oh, couple of months anyway?
    Ms. Lent. I am not sure what our timing is, but we will 
certainly get back to you.
    Mr. Gilchrest. Thank you.
    Ms. Lent. Thank you, Mr. Chairman.
    Mr. Gilchrest. What types of information in these 
cooperative research activities between the scientists and the 
industry, what kind of information are you trying to gather 
when you do that?
    Ms. Lent. I can give a couple of quick examples and ask the 
scientists to weigh in. We are looking at collecting data. We 
are looking at testing gear. I think one project that we are 
working on right now for the western Pacific is trying to get 
research permits so that we could charger long liners to look 
at ways to reduce turtle bycatch in the long line fishery and 
reduce turtle mortality when there is bycatch in that fishery. 
So that is one specific example.
    Based on that, we could make--
    Mr. Gilchrest. How do you do that? In the long line, does 
somebody from NMFS or scientists go out on one of the 
commercial vessels?
    Ms. Lent. Yes. We have a research program that has been 
planned, and I will be happy to send you a copy of that. That 
involves testing with scientists on board fishing vessels, both 
a fishing vessel that is going to have the experiment and a 
control boat right next to it, trolling through the same area, 
long lining through the same area.
    If we are able to get the permit, we are looking for a 
Section 10 permit here because we are dealing with endangered 
species.
    And so it is a scientifically managed and overseen project, 
and based on those results, we could perhaps come up with 
regulations not just for the U.S. long line fishery, but also 
regulations that we could take internationally and suggest 
under the ICCAT, the Atlantic tuna form or under the MHLC in 
the western Pacific, to say, ``Look. Our fishing vessels have 
been working with us to find ways to reduce bycatch and bycatch 
mortality. We cannot save turtles alone. We want to get the 
other countries helping us out.''
    So that is one specific example that is near and dear to my 
heart, and I will let Dr. Sissenwine give some more examples or 
Dr. Richards.
    Mr. Gilchrest. Thank you.
    Doctor?
    Mr. Sissenwine. Yes. In many ways, I think that people who 
go to sea to fish are in many ways the earliest fishery 
scientists. So they know a lot about virtually all aspects of 
the issues that we are dealing with.
    They have been students of fish movements, fish migrations, 
fish behavior, what fish eat, in fact, for thousands of years. 
So we are often just interested in information we can garner by 
interacting with people and learning their views about where 
the fish are and why they go where they are.
    This allows us to design studies for the design of closed 
areas, for the specification of different management units in 
the fishery. So we will work with the fishing industry in 
studies of that nature which deal with behavior and migrations, 
which directly affect how the fishery management units are 
designed.
    We are also very interested in being able to work with the 
industry to get more precise, more focused information that we 
can get from our multipurpose research vessel surveys, and that 
is really the example that Anne Richards described for 
monkfish, and it is also what we have done on some other 
species, like surf claims and scallops.
    Another area that is very important is to get more detailed 
information for actual fishing operations. How successful are 
people in fishing, in their catching of fish? What sort of 
discard problems do they encounter? What sort of habitats do 
they find are favorable to fish, for fish?
    And we hope to be able to collect a lot more detailed 
information of that by what we refer to as study fleets, that 
is, working with groups of fishing people that are motivated 
and want to cooperate because they know it is in everybody's 
best interest, but need to be helped by providing some modern 
tools, such as electronic log books or sensor systems so that 
they can collect data from their vessels more efficiently and 
communicate it to us, and also need to be compensated for some 
of these additional costs that they have of providing data.
    So we do hope to develop study fleets of cooperators within 
the industry that are sort of our eyes and ears and special 
sensors on the water to provide data which would fit within 
stock assessments.
    Mr. Gilchrest. Are there any study fleets now?
    I guess when you are talking about study fleets, you are 
talking about commercial vessels, non-government vessels.
    Mr. Sissenwine. Right. We are talking about fishing vessels 
conducting their normal fishing activities, but who voluntarily 
agree to provide more extensive data than they would be 
required to under the log book system and higher quality data.
    Now, I think that they are interested in doing this because 
they sincerely believe that it is in everybody's best interest 
to have this information, but we also want to help them do it 
by providing modern software, electronic log book systems, and 
instruments to be able to collect data and train.
    Mr. Gilchrest. So this is something that NMFS is proposing?
    Mr. Sissenwine. This is a program that NMFS actually is 
working with the industry to actually implement pilot projects 
this spring and summer for three fisheries in the New England 
area.
    Mr. Gilchrest. Is this what you were talking about, Dr. 
Lent, as possibly expanding the pilot programs?
    Ms. Lent. That would be one.
    Mr. Gilchrest. One of them would be the study fleets?
    Mr. Sissenwine. Yes.
    Mr. Gilchrest. And where might they be?
    Mr. Sissenwine. Well, at the moment, the funding is coming 
out of the Research Partners Program, which is directed toward 
New England. So there will probably be a study fleet developed 
for the southern New England area, also one for a small vessel 
fleet out of Chatham, Massachusetts and probably another 
dealing with the southern Gulf o Maine or western Gulf of Maine 
area.
    But our objective in the long term would be to have a large 
number of study fleets operating for the various fisheries 
within our region.
    Mr. Gilchrest. Throughout the area?
    Mr. Sissenwine. Throughout the country essentially, yes.
    Mr. Gilchrest. So is there any extra funding that is needed 
for this specific pilot project?
    Mr. Sissenwine. Well, there is funding available for the 
New England pilot projects I have mentioned which Congress has 
already generously provided.
    Mr. Gilchrest. How many boats would be in this pilot 
project?
    Mr. Sissenwine. We expect that each one of these will start 
with only a handful, three or four vessels, in the first few 
months, but we would hope that they would generally gear up to 
the order of 40 or 50 vessels from some of the fleets.
    Mr. Gilchrest. And it would be a vessel that would be 
outfitted with the type of gear or technology that it would 
need to make--
    Mr. Sissenwine. To collect data while it is doing its 
normal business.
    Mr. Gilchrest. And there would not be a scientist on board 
the boat?
    Mr. Sissenwine. No. The idea is that right now we have two 
ways primarily of getting data from vessels at sea. One of them 
is log books that the vessels fill out themselves, and the 
other are by putting observers on board.
    Observers are very expensive. Log books on every vessel 
tend not to be -- tend to be difficult to assure the quality 
and to get the detailed data we want. The idea of the study 
fleet is a subset of the vessels that want to cooperate that 
can provide better data than log books at a much lower cost 
than observers.
    Mr. Gilchrest. So how did they provide better data?
    Mr. Sissenwine. Well, we would provide them with a computer 
system so that they could record their data as they go along in 
a very efficient manner, very convenient manner, and depending 
on the nature of the fishery, they might be transmitting it 
back to us on a real time basis.
    It would also allow two-way communication so that we might 
have a design where we ask them to sample certain types of 
species because we happen to need data on that particular one.
    Mr. Gilchrest. Have you targeted a particular fishery for 
this pilot?
    Mr. Sissenwine. Well, the three I mentioned would basically 
target a trawl fishery for yellowtail flounder in the southern 
New England area, probably a hook fishery for codfish off of 
Cape Cod, and a mixed gill net trawl fishery for cod in the 
western Gulf of Maine.
    Those are the ones that the steering Committee, which is 
made up of scientists and fishermen, are discussing right now, 
and they could, of course, come up with some other views, but 
that's the current state of their planning.
    We are very encouraged by the cooperation we are seeing and 
the technology opportunity.
    Mr. Gilchrest. So you have a number of volunteers?
    Mr. Sissenwine. We have a number of people who are part of 
the steering Committee from the fishing industry who are 
encouraging us.
    Mr. Gilchrest. I see.
    Dr. Richards, do you see any issue at all with calibrating 
that kind of information, that data collection to a NMFS 
research vessel going out collecting the same data?
    Ms. Richards. Well, I mean, obviously that is a very 
important issue that we need to try to figure out how these 
data relate to the data from our surveys, which are ongoing, 
standardized, and so give us a perspective over a long period 
of years.
    And so to be able to tie in these special surveys into the 
NMFS survey is a very important issue.
    Mr. Gilchrest. Is there anything else that you want to 
contribute with us here this morning?
    One other question, Dr. Sissenwine. The vessel monitoring 
system, would that be part of the gear that would be employed 
on one of these study fleet vessels?
    Mr. Sissenwine. It certainly could be. We expect that the 
vessel monitoring systems would be part of the overall 
instrument package for the larger vessels, again, voluntarily. 
Some vessels are already required to carry them, but we are 
talking about additional vessels that would volunteer.
    And so for those vessels, particularly the larger trawlers 
that would be in this summer flounder fishery--excuse me--
yellowtail flounder fishery off of southern New England, vessel 
monitoring systems are very likely.
    In some of the smaller vessels, they are not as practical. 
They are expensive, and we have actually been looking at 
designs of essentially cell phone based systems to report data 
back to shore that are much more practical for the small 
vessels.
    So we will use the technology that fits the circumstance.
    Mr. Gilchrest. Is there any need or would there be a 
possibility for one of these study fleets around the Bering Sea 
or the north Pacific?
    Mr. Sissenwine. That is not an area that I work, but Ii see 
no reason why that would not be a potential application.
    Mr. Gilchrest. I guess any one of you can answer this 
question. I assume that most of what we are talking about here 
this morning as far as data collection and cooperation and 
potential study fleets and other pilot projects are for the 
most part in the EEZ.
    I think a huge percentage of the commercial fish that are 
caught spend a significant amount of time in state waters and 
in tidal estuaries.
    Is there any connection to data collection 30 miles off the 
coast of Massachusetts, 50 miles off the coast of Maryland, 100 
miles off the coast of North Carolina, when these surveys are 
taken to assume that the survey might include some information 
about the areas where these fish will spend part of their 
critical lifetime in tidal estuaries?
    Can you collect the data from a spawning area and integrate 
that data with the data that you collect 30 miles off the 
coast?
    Mr. Sissenwine. Well, certainly you are correct that many 
of the fish species depend on the in shore waters. I mean, they 
basically do not know anything about the legal jurisdictions. 
So we are always concerned about how to connect up the live 
history of the fish and the data sets.
    In terms of the fishery dependent data, that is the catch 
statistics, what is caught. There is a program that has been 
developed between the states and the Federal Government under 
the auspices of the Atlantic States Marine Fisheries 
Commission, which is intended to develop a very comprehensive 
and integrated data system for fishery statistics, and good 
progress is being made there.
    The other side of the coin are these resource surveys which 
are a different type of data collection, and of course, we 
conduct a large resource survey in the offshore waters 
primarily within the EEZ.
    A number of the states have their own in-shore surveys in 
their own waters, and we work with them to try to help in the 
design and to exchange data. We are very cooperative in the 
case of the survey, the in-shore survey conducted by the State 
of Massachusetts. In fact, it is conducted on one of our small 
research vessels, and we are working with a number of other 
states in that regard.
    In some cases, states have looked toward cooperative 
research as a way to conduct their own surveys. In fact, the 
State of Maine is now implementing an in-shore survey in their 
waters which is a cooperative survey with the fishing industry 
based very much on the lessons we have learned in the offshore 
waters working with the fishing industry.
    And I think there is great potential for more states to do 
that. So I do think that we need a comprehensive program that 
links up the in-shore waters with the offshore. We are working 
with the states as best we can to make those connections, and 
the states are all that I know of interested and anxious to be 
able to get access to the resources they need to be able to 
either use their own vessels or work with the fishing industry 
to conduct surveys that match up with our offshore surveys.
    Mr. Gilchrest. So NMFS to a certain extent does work with 
some states.
    Mr. Sissenwine. Oh, yes.
    Mr. Gilchrest. They work with the Atlantic State Marine 
Fisheries Commission to do surveys of spawning areas, of areas 
where the fish will spend some time during its lifetime.
    I guess the other question is: is there enough information 
known about where the various commercially valuable fish spend 
part of their life in certain types of habitat, in near shore 
areas and in tidal estuaries, so that NMFS in collaboration 
with the state fishermen, Atlantic State Marine Fisheries 
Commission or whoever can say, ``This is a tidal basin. This is 
tidal pond. This is an estuary, and if we lose this, we are 
going to lose a certain amount of the fish that we catch''?
    And we know that development would destroy this. Dredging 
would destroy this. Too much activity would destroy this 
habitat.
    Is there that kind of dialog going on right now?
    Mr. Sissenwine. Well, there is certainly cooperation 
between the National Marine Fisheries Service and every one of 
the states in one form or another. Some of them are more 
developed into joint surveys, and others are different types of 
projects.
    The Atlantic States Marine Fisheries Commission, after it 
is more aimed at the catch statistics, although they are 
talking about the design of surveys.
    Your specific question about do we know enough to say what 
habitat is important to the different species of fish, I think 
we know a tremendous amount. A lot of it has been catalogued in 
documents we have prepared on a central fish habitat of the 
various species.
    There is always a lot more to learn, and our information is 
probably most incomplete in the in-shore areas because there is 
such a diversity of habitats. So there is certainly a need for 
more information there.
    You raise a more fundamental scientific question, and that 
is if we know that a particular tributary is important habitat 
to a species, whether it be striped bass or summer flounder, 
can we actually say quantitatively what would happen if we 
somehow damaged that habitat.
    And unfortunately from a scientific perspective, that is a 
very difficult question to answer. We know what habitat fish 
use and why we use it, but we rarely can answer the question of 
what is the outcome, what is the impact if, in fact, the 
habitat is eliminated because that is a very complicated 
scientific question about why they use habitat and how 
opportunistic it would be.
    Mr. Gilchrest. Can you say it is likely to improve the 
fishery or it is likely not to improve the fishery?
    Mr. Sissenwine. I think we can usually say it is likely to 
disadvantage the fishery when you remove habitat that is 
actively used by a fish population, particularly during an 
important life stage, like spawning or juveniles.
    So we know the direction, and we know it is important, and 
this is largely why the agency has tried its best to work with 
states to protect habitat, of course. We would like to be able 
to do the research to really pin it down in a more quantitative 
way.
    Mr. Gilchrest. So can that type of research be connected or 
that type of understanding be connected with these pilot 
projects and these study fleets? When you go out and you 
collect the data of a certain fishery, whether it is black sea 
bass, summer flounder, monkish or whatever it happens to be, in 
that data collection, in the overall surveys, is there now or 
should there be a fairly distinct connection between the 
habitat of these species and the data that you collect 
offshore?
    Mr. Sissenwine. Yes. We certainly need to be looking to 
every opportunity to collect more information about habitat and 
its relationship to fish. In our scallop surveys that I 
mentioned earlier on, we actually did have a significant 
component of that that was looking at habitat at the same time 
we were looking at scallop abundance because one of the 
critical fishery management decisions that was made was where 
to allow the scallop fishing to occur so that it would not 
damage habitat.
    And we had to have new information about habitat in order 
to design the fishery, which later led to some very, very big 
benefits for the scallop industry. We need to do that more in 
all of these studies.
    Mr. Gilchrest. Did you want to add to that, Dr. Lent?
    Ms. Lent. Mr. Chairman, I just wanted to add that in 
addition to working in state waters, a lot of these projects, a 
number of these projects are conducted on the high seas, 
including the long line experiment that I just mentioned to 
you, and the experiments coming up in the use of fish 
aggregating devices and their impacts on bycatch and, of 
course, all of the tagging issues.
    So both unilaterally and multilaterally working with our 
international partners we're doing some research on the high 
seas.
    Mr. Gilchrest. And I will close with this question. It is 
always difficult to answer, I would guess, and that is in the 
overall, in the big picture of setting quotas depending upon 
the availability of the fish, the stock assessment, and the on 
the next panel I am sure we will have some discussion about the 
amount of communication from NMFS to the council to the actual 
people that get on the boat to do the fishing.
    In your role as employees of the National Marine Fisheries 
Service, is there an equitable distribution of data in order to 
make a fishery management plan for each of the states in the 
country, but in particular, is there an equitable distribution 
of fish for fishermen from Maine to Florida?
    And is there political influence that enters the picture of 
the distribution of the catch?
    Ms. Lent. I can maybe take a first crack at this, Mr. 
Chairman, and I will let the scientists weigh in on this. The 
allocation determination for summer flounder, for example, I 
know is done through the ASMFC and council process. It is an 
open process that involves the public and a lot of input and 
hopefully the product at the end is satisfactory.
    I think what is important is that the better information we 
have scientifically through programs such as these cooperative 
research programs, the better the scientific basis we have for 
determining, first of all, how much we can catch and, depending 
on habitat issues, whether or not there is an issue associated 
with where the fish are caught.
    I will see if the scientists have anything to add to that.
    Mr. Sissenwine. Well, it is a difficult question, and 
certainly there are always going to be some issues about access 
to the fish that are determined by the fish. There are certain 
places where the fish are more concentrated than others, and 
that naturally is an advantage to some fishing ports that are 
nearby and potentially a disadvantage to others. So there are 
those natural factors.
    I view that the allocation issue, in fact, is primarily a 
political process. It is a social judgment as to how to use 
these resources. It is not something that scientists can tell 
you what is right and wrong about it.
    We can do the analyses to help you by describing what the 
social and economic benefits are of different allocations. So 
we are very anxious to improve the quality of our social 
science research program, meaning both economics and sociology, 
so that we can better inform people like yourself and the 
decisionmakers within the National Marine Fisheries Service.
    What are the consequences of their decisions, but 
ultimately they are not scientific judgments. They are social 
choices between how to use the limited amount of fish that is 
available.
    Mr. Gilchrest. Very good. Thank you very much.
    Dr. Richards.
    Ms. Richards. Well, as Mike says, it is really not a 
scientific issue. One of the nice things about working for the 
National Marine Fishery Services as a science is that you do 
good science, and you are pretty well divorced from the 
political and social pressure.
    Mr. Gilchrest. So the most important issue here for the 
three of you is developing a regime that is the best that we 
can put together for collecting data. That's the most important 
issue.
    Ms. Lent. And any types of gear research and other 
activities that we can do collectively.
    Mr. Gilchrest. I see.
    Mr. Sissenwine. Providing sound and objective scientific 
advice.
    Mr. Gilchrest. Sound and objective scientific advice.
    Mr. Sissenwine. Yes.
    Mr. Gilchrest. Thank you all very much.
    Ms. Lent. Thank you, Mr. Chairman.
    Mr. Sissenwine. Thank you.
    Mr. Gilchrest. And we are going to hold those questions to 
the end. They will still be here, but you have a burning 
question?

                 COMMENTS OF JEFFREY S. EUTSLER

    Mr. Eutsler. Yes. I did a pilot survey just last month.
    Mr. Gilchrest. Do you want to come to the mic?
    Mr. Eutsler. My name is Jeff Eutsler out of Ocean City 
Maryland. I have the fishing vessel ``Tony and Jan.''
    And I happened to be involved in a pilot program for the 
horseshoe crabs, and three states were involved because of them 
did not kick any money into the program. It was Maryland, 
Delaware, and New Jersey.
    And what we did, we started September 10th, and it lasted, 
because of weather and that, it lasted until about the 18th of 
October. We went to 45 different sites, but we made 90 trawls 
in those different sites by one at night and one in the 
daytime.
    Mr. Gilchrest. Who was this with, National Marine Fisheries 
Commission?
    Mr. Eutsler. No, this was the Atlantic States Marine 
Fisheries. They gave the money to Virginia Tech out of 
Blacksburg, Virginia, and we had their scientist, Dave Hadeau, 
on the boat with me. It was me and him and the guy that works 
for me, my deck hand.
    Mr. Gilchrest. Were there any other boats involved in the 
survey?
    Mr. Eutsler. No, I was the only boat involved in it. Well, 
I primarily got involved in it because I sat as an advisor to 
the horseshoe crab plan.
    But the problem that I see in it, that is fine, and I think 
they are very important, these pilot programs, for any fishery, 
but the problem is they do it when it is too late. They do it 
after the fact, and a case in point here in Maryland we got cut 
75 percent or 74 percent of horseshoe crab plan, and that was 
very important. That cut me 40 percent of my income and the 
gentleman that works for me. And that was before they eve knew 
what was going on.
    And so that is why I wanted to jump in with both feet for 
these pilot programs. And another thing, money plays--
    Mr. Gilchrest. Do you think the pilot project or the 
service should have been done sooner?
    Mr. Eutsler. It should have been done a lot sooner, and I 
think what it is you have a tug, too, between two entities. You 
have the commercial aspect, and you have the environmental 
aspect, and until those two people meet together with some kind 
of, you know--I do not know the word. I just can't without 
thinking what I want to say, but until those two groups meet 
together and has out some things because--
    Mr. Gilchrest. Has that happened?
    Mr. Eutsler. Not very good because the horseshoe crab--I 
will just use that for it real quick because I know we are 
limited in time--we went to the meeting in Annapolis, and we 
were told do not even come because they have already made their 
decision.
    Mr. Gilchrest. Who told you not to come?
    Mr. Eutsler. That was the ARL or something like that in 
Annapolis.
    Mr. Gilchrest. Do you feel that the data that you collected 
during those 90 trawls was sufficient and gave you accurate 
data on the condition of the horseshoe crab?
    Mr. Eutsler. I think so because of the fact that we took 
the scientist with us, and we went from a quarter of a mile 
here in Maryland because we had a special permit for scientific 
data. We went from a quarter mile to 12 miles in these 
different places, and in fact, in a couple of places I said 
there is no need to even tow here because we are not going to 
catch them, and we caught horseshoe crabs, not a whole lot, but 
there were some there.
    And off of Jersey we went 1 day. I will give you an 
example. We made a 15 minute tow, which is pretty good, and we 
had about 150 horseshoe crabs. We went back and made that exact 
same tow at night, and we had 750 crabs.
    So it is important, too, you know, the time when they make 
day and night because it could change.
    Mr. Gilchrest. So do you feel that you had enough input 
during that survey from the scientist collecting the data that 
the overall survey was--
    Mr. Eutsler. Successful?
    Mr. Gilchrest. --successful, accurate for information?
    Mr. Eutsler. I think so if they are allowed to use their 
information on it. Sometimes I feel like we do a lot of stuff 
like this, and they do not use the information, and I think 
like with technology the way it has gotten that fishing 
industries change from 20 years ago to now. I have been fishing 
23 years, and our technology, I could take anybody out in this 
room and within a week train them to be a fisherman and catch 
fish because because of the technology, laptop computers and 
stuff like that.
    So I think that when we do this, we have to change, too, 
and that is science and everything has to change.
    Mr. Gilchrest. Do you think the reduction in the catch for 
horseshoe crabs was warranted?
    Mr. Eutsler. We went up and asked for a 40 percent 
reduction, figuring that would, you know, help and appease both 
sides, and we got cut 75 percent. I do not think--it is hard to 
say.
    Now, earlier we have caught them a lot better, and 
sometimes weather plays a big part on it as well.
    Mr. Gilchrest. Is there going to be another survey 
sometime? Do you know?
    Mr. Eutsler. This was a pilot survey program to see if it 
was economically feasible to do, and really during that time I 
made pretty good money doing it, but really I lost money 
because of what I was able not to catch, and that is another 
thing.
    When they do the surveys and the programs, they should 
allow the fishermen to keep the fish no matter where they are 
at. Now, in Jersey, Maryland made it in theirs that I could 
keep what little bit of fish we caught along with it, which was 
nice, but in Jersey I had to push all those dead fish back, and 
in 15 minutes you kill fish. So really you are beating the 
devil around the stump doing these surveys. So that is 
something, too, that needs to be addressed, as well.
    Mr. Gilchrest. What was your name again, sir?
    Mr. Eutsler. Jeff Eutsler, E-u-t-s-l-e-r.
    And I have been fishing out of Ocean City 23 years and hope 
to continue to do so.
    Mr. Gilchrest. Thank you very much.
    Mr. Eutsler. That is something about pilot programs, but I 
think they work, but they wait too long to do it. They put the 
cart before the horse or they wait when the fishery is so down 
that it does not work.
    And I appreciate you being here today and you all, to.
    Mr. Gilchrest. Thank you very much. We will add you to our 
witness list.
    Mr. Eutsler. OK. Thank you.
    Mr. Gilchrest. Thank you.
    Dr. Lent, Dr. Sissenwine, Dr. Richards, thank you very 
much.
    Mr. Sissenwine. Thank you.
    Mr. Gilchrest. Our second panel this morning will be Mr. 
Howard King, Division Director for Fisheries Management and 
Development, Maryland Department of Natural Resources; Mr. Jack 
Colbourne, Sr., President, Colbourne Seafood, Incorporated; Mr. 
Richard Novotny, Executive Director, Maryland Saltwater 
Sportfishermen's Association; and Mr. Kerry Harrington, a 
commercial fisherman.
    Welcome, gentlemen, this morning. Thank you for coming, and 
we look forward to your testimony.
    Mr. King, you may go first.

   STATEMENT OF HOWARD KING, DIVISION DIRECTOR FOR FISHERIES 
  MANAGEMENT AND DEVELOPMENT, MARYLAND DEPARTMENT OF NATURAL 
                           RESOURCES

    Mr. King. Thank you, Mr. Chairman and members of the 
Subcommittee.
    I appreciate the opportunity for the Maryland Department of 
Natural Resources to be here today and address you.
    Again, my name is Howard King, and you mentioned that I am 
with the Maryland Department of Natural Resources, and 
specifically with the Fishery Service with that department, and 
we are responsible for the management of interjurisdictional 
and residential species in Maryland waters, and as part of this 
responsibility we license and regulate the fishing activities 
of both commercial and recreational users.
    And it is incumbent upon the department and all regulators 
to work closely with the users so that we can implement the 
best management practices possible.
    In Maryland, we use the information that is gathered in 
cooperation with our users and fisheries management forums with 
the National Marine Fisheries Service, the Atlantic States 
Marine Fisheries Commission, the Mid-Atlantic Fisheries 
Management Council, and the Chesapeake Bay Program.
    In Maryland, we actually created a Waterman's Bay 
Improvement Program, and this was focused on Chesapeake Bay 
work, but it was a mechanism and a vehicle to enable the 
department to hire commercial harvesters to captain their 
vessels to provide an appropriate platform to sample fish and 
shellfish resources, and that sampling would be conducted at 
the same gear efficiencies as they would have applied in their 
own commercial fishery.
    Watermen have also been used to assess the feasibility of 
rejuvenating oyster bottoms for new techniques, but they have 
managed pilot aquaculture, shellfish projects in tidal waters, 
and commercial netters have actually worked with the department 
to capture, hold, and assist in tagging certain species of 
finfish.
    In each case, in our judgment cooperative efforts have 
resulted in better information and sound guidance in 
determining preferred management options.
    The Maryland Watermen's Association in Maryland contacted 
with individual watermen to actually map the preferred or the 
most frequented commercial finfishing areas in the Chesapeake 
segmented into north, middle and south.
    For the first time we were provided with information on 
their specific techniques in those areas that included 
information such as bottom hangs, mesh size, frequency of use, 
and the general size and grade of fish caught during the 
various seasons.
    This was the first comprehensive view that the department 
had had of the overall commercial finfish activity.
    We have also used charter boat captains and vessels to fish 
under controlled conditions to determine the bycatch mortality 
of the taking of certain species of fish in areas that had 
heretofore been closed to catch and release fishing.
    As a result of these activities, we determined that the 
catch and release mortality was at an appropriate level that 
permitted catch and release fishing, and as a consequence, 
these areas were opened.
    This did two things. This benefitted the charter boat 
fishery in that it increased their business, and it also 
included the on shore businesses supporting recreational 
fishing in Maryland.
    On the ocean side, the department recently initiated a 
detailed trip ticket catch reporting system with the 
cooperation of the harvesters. This information is provided to 
the Atlantic States Marine Fisheries Commission. They have an 
Atlantic Coast Cooperative Statistics Program, and Maryland is 
serving as the pilot state, the first state to be in gear and 
provide information to this regional commission.
    Also with ASMSC and cooperating seafood dealers, and this 
is on the bay side, we have been funded to develop a prototype 
electronic catch reporting system for in this case our 
commercial striped bass fishery, but the core purpose of this 
new system would be accuracy and timeliness.
    The striped bass fishery in Maryland is a quota base 
fishery, as many of our fisheries are becoming, both offshore 
and in shore, and timeliness is essential in the management of 
these quota based fisheries with these period allocations.
    Recreational anglers are also cooperating with the 
department here on the ocean side. The anglers have, in fact, 
initiated on their own and then shared with the department 
their own volunteer catch report for the summer flounder 
fishery, and the department is reviewing that information. We 
reviewed it last year. We continue to review it.
    The recreational flounder fishery, at least the summer 
founder fishery, is constantly in a state of change in this 
transitional period while we are rebuilding the stocks, and so 
I know the anglers feel as though they need more input into the 
data that is being used and more consideration of the 
information that they provide.
    In my written comments, I have included some general 
comments on reauthorization of the Magnuson-Stevens Fishery 
Conservation Act, but I would like to say that the NOAA 
Chesapeake Bay Program Office is providing funding for 
advancements in Maryland and in the Chesapeake Bay system that 
is transferrable outside of that area in multi-species 
management.
    This is really the cutting edge in our region for trying to 
get a handle on multi-species management and ecosystem 
management. We have a long way to go, but NOAA NMFS is really 
providing the funding initiative to do that.
    On a specific note for Maryland fisheries, the black sea 
bass fishery has become extremely contentious in our region. I 
think there is an opportunity here for the National Marine 
Fishery Service to work a little more closely with the black 
sea bass fishermen in this mid-Atlantic region. It may be that 
the data from the northern portion of the fisheries range is 
driving this bus, and our fishermen, I think, believe that we 
have a different situation offshore here than the northern 
waters, bottom habitats are different, size distribution, and 
the stock could perhaps be different.
    Bycatch mortality is a big concern here. It may require 
modification of gear which would be an expense that our 
fishermen could not bear. So there needs to be some sort of 
collaborative work, possible funding, to work with our black 
sea bass pot fishermen to try to resolve some of these 
differences. And I am not aware that such a program is in place 
currently, but that would certainly be an area to investigate.
    With that I conclude.
    [The prepared statement of Mr. King follows:]

  Statement of Howard King, Director for Management and Development, 
      Fisheries Service, Maryland Department of Natural Resources

    Mr. chairman and members of the committee, I would like to thank 
you for giving the Maryland Department of Natural Resources, Fisheries 
Service the opportunity to address the Subcommittee.
    My name is Howard King. I am the Director for Management and 
Development for the Maryland Fisheries Service. Our department and unit 
are responsible for management of interjurisdictional and resident fish 
resources within Maryland. As part of this responsibility we license 
and regulate the fishing activities of commercial harvesters and 
recreational anglers. It is incumbent upon our department to work 
closely with the users of the fishery resources to implement the best 
practical management measures. Information resulting from cooperative 
management research and survey projects is used in our fisheries 
management forums of the atlantic states marine fisheries commission 
and /or the mid-atlantic fisheries management council. Cooperative 
interaction with the users of the resource is most typically through 
direct services contracted to licensed harvesters and through 
cooperative catch reporting for commercial and recreational users.
    The department created the watermen's bay improvement program 
specifically to hire commercial watermen to captain their vessels to 
provide an appropriate platform to sample fish and shellfish resources. 
The sampling is conducted at the same gear efficiencies that would be 
used in the commercial fisheries. This practice has been applied in our 
oyster, blue crab, finfish, and terrapin fisheries and complements our 
fishery independent sampling of the resources. Watermen have also been 
used to assess the feasibility of rejuvenating oyster bottom through 
bagless dredging techniques. In other instances watermen have been 
hired to manage pilot aquaculture shellfish projects in tidal waters. 
In past years we have also contracted with commercial net operators to 
collect, hold and assist in tagging or transplanting of certain species 
of finfish. This practice has been applied in our yellow perch and 
black drum management. In each case the cooperative efforts have 
resulted in better information and sound guidance in determining 
preferred management options.
    We have contracted with watermen through the Maryland watermen's 
association to chart the most frequented commercial finfishing areas of 
the Maryland portion of the Chesapeake Bay. Provided also were 
information on bottom hangs, gear use frequencies and the general size 
and grade of fish caught during the various seasons.
    Charter boat captains and vessels have been hired to fish under 
controlled conditions to assess catch and bycatch release mortality in 
areas subject to potentially excessive bycatch mortality. Recreational 
anglers also assisted in the project. This assistance resulted in 
closed areas being opened to a striped bass catch and release fishery 
in a previously closed area. Charter boat captains, vessels, and 
recreational anglers have also directly assisted in the estimation of 
angler catch success rates on and around established artificial reefs 
in Chesapeake Bay.
    The commercial catch of any species subject to a fishery management 
plan or regulations is required to be reported. Recently the department 
initiated a detailed trip ticket catch reporting system in our 
oceanside bays with the cooperation of the harvesters. The department 
is working with the atlantic states marine fisheries commission and 
cooperating seafood dealers to develop a prototype electronic catch 
reporting system for our commercial striped bass fishery. This effort 
requires the cooperation of each segment in the transaction chain for 
the purpose of collecting better catch data in the most timely manner. 
Timeliness is essential in the management of a quota-based fishery with 
monthly allocations.
    Recreational anglers are cooperating with the department to provide 
catch and effort information for the oceanside summer flounder fishery. 
We also established an angler survey for our Chesapeake Bay striped 
bass fishery. These volunteer efforts contribute data for many fishery 
parameters and is the only database available to the department that 
provides length frequency data for the recreational striped bass 
fishery. The volunteer angler striped bass survey is an online web-
based reporting system.
    The Magnuson-Stevens fishery conservation and management act, when 
reauthorized, should be certain to prevent overfishing and yield 
sustainable long-term benefits from our fishery resources. Regulators 
and users are still adjusting to the current authorization. The 
reauthorization should provide stability as we work through the 
recovery plans. The act should also provide the framework for 
advancements in ecosystem management but should not be so specific that 
it deters adaptive development of the processes. We should strive to 
reduce or eliminate ambiguity, strengthen the relationship between 
regulators and users in the commercial industries and the recreational 
community, and establish better linkages and protective measures for 
essential fish habitat and conservation. It would be beneficial if 
funds could be authorized for states to share in research set-asides to 
develop better bycatch reduction gear for species captured within state 
jurisdictional waters and inland marine and estuarine waters.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. King.
    Mr. Colbourne.

STATEMENT OF JACK COLBOURNE, SR., PRESIDENT, COLBOURNE SEAFOOD, 
                              INC.

    Mr. Colbourne. Thank you.
    Mr. Chairman, members of the Committee, my name is Jack 
Colbourne of Colbourne Seafood and a fishing vessel owner at 
Mount Vernon.
    My understanding of the fishery management plan was to 
regulate the fishery, not to regulate the fishermen and the 
seafood dealers out of business. My small business in Maryland 
suffered a loss of 40.3 percent from '96 to '97 because of 
regulations. From '97 until present, we have lost 60 percent of 
the remaining 60 percent because of new regulations.
    I hope your intention is not to eliminate the American 
fisheries. If so, you are doing an excellent job. We currently 
are losing our markets to import products. We cannot compete 
with South America, Central America, and Third World countries 
who are saturating U.S. markets with cheap seafood caught, 
processed, and shipped by people making less per day than U.S. 
minimum wage per hour.
    Without product, we will lose all of our customers. We are 
in danger of losing our fishermen and dockside packing 
facilities. We cannot take another 60 percent loss of income 
and survive. I am sure none of you would like a 60 percent cut 
in your salary. So please reconsider your sea bass, scupp, 
fluke, squid, and all other seafood management regulations.
    Let the American fisherman make a living so he can support 
his family and pay his bills as you all do. Give us the same 
protection as the U.S. Government gives the American farmer, a 
right to survive.
    In 1996, my company processed or packed 350,000 pounds of 
black sea bass. In 2001, we were down to 72,000. That is for 
the whole year.
    The product is being taken off of the menu in the cities 
because of the frequent closures. It is being replaced with 
imports. We must have continuity to retain a customer base.
    The first week of the quarter, the new quota quarter, the 
markets are flooded by several species of fish because 
everything is on a quota. The market is flooded. It tumbles. 
The fishermen, we all suffer from it.
    About the third week everything is shut down again. So we 
will go ten more weeks without product. No one can survive 
under these regulations.
    I noticed you took a great interest in Dr. Sissenwine's 
studies, all to be conducted in the Massachusetts, Maine area. 
What about the Mid-Atlantic Region? If there are plenty of 
funds available, why are we donating money to the Garden State 
Association to fund studies, joint ventures, and hiring people 
from Rutgers University to do study and stock assessments for 
the commercial fishery?
    New York North has a state black sea bass fishery season. 
In the South we do not. When we are shut down in the South, 
north of New York keeps on fishing, but it goes against our 
Federal quota in the South also.
    Why not give us state quotas base on historic catch going 
back 10 years, from '86 to '96, the years before NMFS started 
regulating the fishery? Maryland was third in production in 
those years. Now we are near the bottom because of regulations. 
Our quotas are being caught by other states north of us.
    It seems as people who have been involved with commercial 
fishing or seafood dealers who have seen the highs and lows in 
production over the past 40 to 50 years have little or no 
influence in the continual overwhelming regulations being 
applied by National Marine Fishery, Atlantic State Fishery 
Commission, Mid-Atlantic Council, and the state natural 
resources.
    The only people that know anything about our livelihood and 
our fishing or the economic impact it has placed on us is 
someone with a Ph.D. or a Doctor behind their name. If it is a 
14 year old kid with a Ph.D. that graduated from North Dakota 
U., he would know what is best for us.
    We hope the government, you people, will do something to 
rein in the appointed bureaucrats who are making laws and 
regulations. They are destroying the American fishery.
    If you look around there are very few young people left in 
the commercial fishery. There is no future in it the way it is 
going. People are not following the footsteps of their fathers, 
their grandfathers.
    My son will be fourth generation. What is his future in the 
fishery? He does not have one.
    We all know we have to have regulations and laws and rules. 
We all understand that, but do they have to be so stringent 
that they are going to destroy a way of life? I mean, I respect 
all of these doctors and professors and whatever around here. I 
am sure they are doing a good job, but they have to consider 
the little people, the people that they are eliminating out of 
the fishery.
    It has probably been 20 or 25 percent reduction in 
commercial fishermen in the last 5 years. Has there been a 25 
percent reduction of the staff at the National Marine 
Fisheries? I am sure it has not. They have probably hired 
another 25 percent.
    So please consider the little people when these management 
plans are put together. Without your help we are losing our 
heritage. We will not be here.
    Thank you very much.
    [The statement of Mr. Colbourne follows:]

    Statement of Jack Colbourne, President, Colbourne Seafood, Inc.

    Mr. Chairman, Members of the Committee,
    My name is Jack Colbourne, owner of Colbourne Seafood, Inc. and the 
fishing vessel Mt. Vernon. My understanding of the Fisheries Management 
Plan was to regulate the fisheries - not to regulate the fishermen and 
seafood dealers out of business.
    My small business in Maryland suffered a loss of 40.3% from 1996-
1997 because of regulations. From 1997 to present we have lost 60% of 
the remaining 60% because of new regulations. I hope your intent is not 
to eliminate the American Fisheries, if so you are doing an excellent 
job. We are currently losing our markets to imported products. We 
cannot compete with South America, Central America and third world 
countries who are saturating U.S. markets with cheap seafood. Seafood 
that is caught, processed, and shipped by people making less than the 
U.S. minimum wage per hour.
    Without product we will lose our customers. We are also in danger 
of losing our dockside packing facilities. We cannot take another 60% 
loss of income and survive. I'm sure none of you would like a 60% cut 
in your salary. Please reconsider your Seabass, Scup, Fluke, Squid, and 
all other seafood management regulations. Let the American fisherman 
make a living so he can support his family and pay his bills as you do. 
Give us the same protection the United States gives the American 
farmer- a Right to Survive.
    Thank You for your consideration.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Colbourne.
    Mr. Novotny.

  STATEMENT OF RICHARD NOVOTNY, EXECUTIVE DIRECTOR, MARYLAND 
             SALTWATER SPORTFISHERMEN'S ASSOCIATION

    Mr. Novotny. Mr. Chairman, members of the Committee, I 
would like to thank you for giving me the opportunity to 
address this Committee.
    Once again, my name is Richard Novotny, and I am the 
Executive Director of the Maryland Saltwater Sportfishermen's 
Association.
    The MSSA is composed of approximately 7,00 conservation 
minded members who fish the East Coast. Although we are a 
Maryland based organization, we have many members throughout 
the mid-Atlantic region.
    We would like to urge this Committee to keep reauthorizing 
the Magnuson-Stevens Fishery Conservation and Management Act. 
this act has demonstrated to be the most effective management 
tool in the protection and preservation of the nation's marine 
resources.
    Since its passage, regional fishery management councils are 
required to determine if over fishing is occurring. They then 
are required to submit measures to end over fishing and start 
to rebuild those stocks that are determined to be over fished.
    In the annual report to Congress by NMFS of the 2000 
fishing season, NMFS has indicated 92 stocks were found to be 
over fished while 145 stocks were determined not to be over 
fished.
    There are approximately 600 stocks that they do not even 
know what the status is. Either they are unknown or undefined. 
They do feel though out of the 600 stock that they have not 
investigated, 83 percent of them are considered to be very 
minimal in landing and economic value.
    The Maryland Department of Natural Resources we feel has 
done a very credible job in gaining valuable scientific data 
concerning their fisheries. The best example of this data 
collection that we can think of would be the Maryland's Young 
of the Year survey for striped bass. This survey has been 
conducted since 1954 to monitor the reproduction of striped 
bass stocks along the East Coast that spawn in the Chesapeake 
Bay.
    By Maryland providing this valuable information to NMFS and 
other Federal agencies, such as the Atlantic States Marine 
Fisheries Commission, comprehensive fishery management plans 
have been developed for striped bass stocks on the East Coast. 
Working together, monitoring scientific data from other state 
surveys and establishing data concerning fishing mortality has 
helped bring the striped bass stock back to a recovered fishery 
and is no longer listed as a threatened species.
    This amazing turnaround of the striped bass stocks could 
not have happened and could not have been accomplished in such 
a short period of time without all agencies cooperating 
together. That includes the councils. That includes NMFS, U.S. 
Fish and Wildlife Service, all the agencies in a cooperative 
manner bringing back the resource.
    Maryland DNR has also established our annual survey in 
their state for striped bass fishery. This is a volunteer 
survey conducted with our association and several other fishing 
organizations to submit catch reports after striped bass 
fishing trips. The survey includes recording the size of the 
first 20 fish, fish health, location where caught, number of 
fish caught or released, and the number of anglers, the method 
of fishing, and fishing from either boat or land.
    This valuable information, when analyzed, will allow the 
State of Maryland to accurately account for their recreational 
harvest. In turn, this information can be distributed to ASMFC 
science and statistical Committee to help quantify Maryland's 
recreational catch.
    As Mr. King alluded to earlier, our association has done a 
report, a survey of summer flounder here on the coast last 
year. We have gotten together with the department, and they 
want to try to use the same survey as we have been using for 
striped bass, and the year 2000 here for summer flounder 
fishery to try to get a better handle on the actual 
recreational harvest for summer flounder and the back bays.
    Greatest problem concerning our fish stocks is what we feel 
is over fishing. One measure to control over fishing is for 
Federal agencies working along with each state to control 
harvest. Scientific data must be obtained concerning fishing 
mortality and stock composure and abundance. Knowing these 
factors can help NMFS, ASMFC, and the councils establish 
meaningful fishery management plans.
    And example of this cooperative research program would be 
the tagging effort of the striped bass stocks off of their 
winter quarters off North Carolina. This is a cooperative 
program with several Atlantic Coast states and NMFS to document 
the coastal migratory behavior of fish stocks, the striped bass 
stocks up and down the coast.
    It is best to get first hand assessment of the resource by 
the ones who are close to the day-to-day management of the 
resource. Sharing information and scientific data concerning 
fish stocks would only help in the management of the resource 
on a national level. Yet some stocks only pertain to local 
areas or states. Yet many species know no state boundaries. 
These various stocks travel up and down the coast on a very 
predictable migratory pattern.
    Migratory stocks are not only in state waters, but are 
found in the EEZ or the exclusive economic zone. Our fish 
stocks are a finite resource and must be protected from being 
over fished.
    NMFS is charged with the stewardship of our precious fish 
stocks, and only through the cooperation of each state 
participating in the fishery can we control their future.
    To help in the cooperative management of the resource, 
states must submit total landing for each species by a 
commercial and recreational sector. Other additional necessary 
data would be size, composition of the catch, the number of 
individuals participating in the various fisheries, and the 
number of weight and fish harvested.
    Gaining this type of scientific data will enable NMFS to 
establish meaningful regulations to control mortality. Once 
again, we would like to remind NMFS that they must put the 
resource first and the users of the resource second. Without 
the resource the users will not be around to use it anyway.
    We would like to take this opportunity also to comment on 
the composition of the councils. When the councils were first 
established, we understood the need to overload them with 
commercial fishermen. Councils had to incorporate many new 
regulations concerning commercial fisheries' harvest. Gear 
type, area, minimum size limits, and harvest were only a few of 
the variables that had to be established.
    However, since that time, the recreational fishery has 
grown by leaps and bounds. In a 1997 study conducted by NMFS 
they stated that there was 17 million recreational anglers who 
made 68 million fishing trips to bolster the U.S. economy by a 
tune of $108.4 billion. As you can see, it is a very important 
industry.
    Now with the recreational fishing community being so 
dominating in numbers and economic value, they must have a 
stronger voice in the policy and decisionmaking in our nation's 
fishery. We ask that this Committee investigate the current 
composure of the council in reference to our question and to 
correct the bias shown toward the commercial industry.
    It is time for the council to have a broader representation 
for the public interest, recreational, commercial, and 
conservation groups. Please remember that we are talking about 
a public resource that belongs to all U.S. citizens of the 
United States.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Novotny follows:]

 Statement of Richard Novotny, Executive Director, Maryland Saltwater 
                      Sportfishermen's Association

    Mr. Chairman and members of the Committee, I would like to thank 
you for giving me the opportunity to address this committee. My name is 
Richard Novotny and I am the Executive Director of the Maryland 
Saltwater Sportfishermen's Association (MSSA). The MSSA is composed of 
approximately 7,000 conservation-minded members who fish the East 
Coast. Although we are a Maryland based organization, we have many 
members throughout the mid-Atlantic region.
    We urge this Committee to keep re-authorizing the Magnuson-Stevens 
Fishery Conservation and Management Act. This act has demonstrated to 
be the most effective management tool in the protection and 
preservation of the Nation's marine resources. Since its passage, 
regional fishery management councils are required to determine if 
overfishing is occurring. They are then required to submit measures to 
end overfishing and rebuild those stocks determined to be overfished. 
In the annual report to congress by NMFS of the 2000 fishing season 
NMFS has indicated that 92 stocks were found to be overfished while 145 
stocks were determined not to be overfished. There are approximately 
600 fish stocks whose status is either unknown or undefined. However, 
approximately 83 percent of these stocks are considered to be very 
minimal in landings or economic value.
    In their annual review of the conditions of U.S. fisheries acting 
NOAA Administrator, Scott Gudes, said ``the status of many U.S. marine 
fish stocks improved in 2000, although some stocks continue to have 
problems. This shows us that while we've made some significant gains we 
must also continue to work with the regional fishery management 
councils to reduce the number of overfished stocks and comply more 
fully with strong conservation standards enacted in 1996''.
    Maryland Department of Natural Resources (DNR) has done a very 
credible job in gaining valuable scientific data concerning their 
fisheries. The best example of this data collection that we can think 
of would be Maryland's Young of the Year Survey for Striped Bass. This 
survey has been conducted since 1954 to monitor the reproduction of 
striped bass stocks along the East Coast that spawn in the Chesapeake 
Bay. By Maryland providing this valuable information to NMFS and other 
federal agencies such as the Atlantic States Marine Fisheries 
Commission (ASMFC) comprehensive fishery management plans have been 
developed for striped bass stocks on the East Coast. Working together 
monitoring scientific data from other states' surveys and establishing 
data concerning fishing mortality has helped bring the striped bass 
stocks back to a recovered fishery and is no longer listed as a 
threatened species. This amazing turnaround of the striped bass stocks 
could not have been accomplished in such a short period of time without 
all agencies cooperation.
    Maryland DNR has also established an angler survey for their 
striped bass fishery. This is a volunteer survey conducted with our 
association and several other fishing organizations to submit catch 
reports after each striped bass fishing trip. The survey includes 
recording the size of the first twenty fish caught, fish health, 
location, number of fish caught or released, number of anglers, method 
of fishing, and fishing from boat or land. This valuable information 
when analyzed will allow the State of Maryland to accurately account 
for their recreational harvest. In turn this information can be 
distributed to ASMFC's science and statistical committees to help 
quantify Maryland's recreational catch.
    The greatest problem concerning our fish stocks is overfishing. One 
measure to control overfishing is for federal agencies working along 
with each state to control harvest. Scientific data must be obtained 
concerning fishing mortality and stock composition and abundance. 
Knowing these factors can help NMFS, ASMFC and councils establish 
meaningful fishery management plans.
    We are sure that all states are willing to share their knowledge 
and management tools in having sustainable fisheries. After all it's 
best to get first hand assessment of the resource by the ones who are 
close to the day to day management of the resource. Sharing information 
and scientific data concerning fish stocks would only help in the 
management of the resource on a national level. Yes, some fish stocks 
may only pertain to local areas or states, yet many species know no 
state boundaries. These various stocks travel up and down the coast on 
a very predictable migratory pattern.
    Migrating stocks are not only in state waters but are found in the 
Exclusive Economic Zone (EEZ). Our fish stocks are a finite resource 
and must have the protection from being overfished. NMFS is charged 
with the stewardship of our precious fish stocks and only through the 
cooperation of each state participating in the fishery can we control 
their future. To help in the cooperative management of the resource 
states must submit total landings for each species either by the 
commercial or recreational sector. Other additional necessary data 
would be the size composition of the catch, the number of individuals 
participating in the various fisheries and the numbers and weight of 
fish harvested. Gaining this type of scientific data will enable NMFS 
to establish meaningful regulations to control fishing mortality.
    We would like to take this opportunity to comment on the 
composition of the councils. When the councils were first established 
we understood the need for over-loading them with commercial fishermen. 
Councils had to incorporate many new regulations concerning the 
commercial fishery harvest. Gear type, areas, minimum size limits, and 
harvest were a few of the variables that had to be established. 
However, since that time the recreational fishery has grown by leaps 
and bounds. In a 1997 study conducted by NMFS they stated that there 
were nearly 17 million recreational anglers who made 68 million fishing 
trips to bolster the U.S. economy to the tune of $108.4 billion. Now 
with the recreational fishing community being so dominating in numbers 
and economic value they must have a stronger voice in the policy and 
decision making in our nation's fishery. We ask that this committee 
investigate the current composure of our councils in reference to our 
questions to correct the bias shown toward the commercial industry. It 
is time for councils to have a broader representation for the public 
interest, recreational, commercial and conservation groups. Please 
remember that we are talking about a public resource that belongs to 
all citizens of the United States.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Novotny.
    Mr. Harrington.

      STATEMENT OF KERRY HARRINGTON, COMMERCIAL FISHERMAN

    Mr. Harrington. Thank you, Mr. Chairman.
    I am before you today submitting this written testimony in 
hopes that you will understand--
    Mr. Gilchrest. Mr. Harrington, can you pull the mic a 
little closer?
    Mr. Harrington. Yes, I can do that.
    I am before you today submitting this written testimony in 
hopes that you will understand and rectify the plight of the 
commercial fishing industry. There are many areas that have 
been affected, from new regulations, closures, quotas, limited 
entry, et cetera. The list goes on.
    It is my understanding that all of these actions were 
implemented based on good, sound data to support the changes. 
However, as we all know, once the data is actually compiled, it 
is antiquated. It is not and never has been the intent of the 
fishing industry to annihilate many species of fish. I believe 
I can speak for the industry as a whole that we simply want to 
find the cure to the problems so that our industry is not 
affecting the livelihood and economy of many.
    It is my opinion that in order to cure problems it is 
necessary that we realize the impact of both the fisheries and 
human sectors. A challenge of this sort requires an in depth 
understanding of each fishery by both fisherman and regulators. 
We must have joint participation to create a balanced outcome. 
It is crucial that we remember that many variables and be 
careful not to make rules and regulations so stringent to 
create animosity within.
    As the Magnuson Act comes up for review, it gave us time to 
realize changes need to be made. I admit I do not understand 
all of its content, but through joint cooperation, positive 
evaluations that a pro fisherman and pro regulators can be met.
    In my 20-plus fishing career years at Ocean City, there 
have been many trials and tribulations, but I must state that 
regulations over the past several years, and obviously this 
goes between the industry and the regulatory agencies, have 
caused many talented and caring fishermen to believe the 
livelihoods were the dying species, not the fish.
    Quotas. If you do not go fishing, you will lose your fair 
share of your quota allocated. That translates into fishermen 
fishing overtime and fishing when they should be making safety 
repairs on their vessels, fishing when they are exhausted for 
fear that they lose the part of the quota.
    Under the rodeo trip regulations, it has proven both crews 
and vessels are in jeopardy. They are going to see unsafe 
conditions with improperly maintained vessels.
    Production fishing has also impacted adversely in ice 
plants, fuel companies, tackle shops, retail shops, 
restaurants, hardware stores, you know, et cetera.
    Sea bass fishing is or was my primary fishery for many 
years. It also has been where I have taken the greatest 
financial loss, approximately 80 percent. I first questioned 
the data to which NMFS derives sea bass in the faltering stock.
    There have been several issues in this fishery which 
warrant questioning in the process of regulations. There were 
supposed to be studies done over a period of time based on 
size. Instead there was a rapid increase. Without using a 
reasonable time period for the study, with a realistic, agreed 
upon time period for a study, say, 3 years, it is impossible to 
determine a regulatory size which has a positive or negative 
impact on the mortality rate of the fishing stock.
    Logic dictates that such a study would require a period of 
time equal to a minimum cycle of the sea bass route. It was my 
understanding that 3 years was originally designated. However, 
the change from nine to ten inches was over a 6-week period of 
time.
    In 1996, there was a moratorium put on sea bass. However, 
with a loophole that allowed anyone who could prove that they 
caught one pound of sea bass could acquire a Federal permit. I 
still question the fairness and logic of that.
    What this did was allow an increase in number of people for 
sea bass and a fishery that is supposedly already in trouble. 
Now there were more fishermen taking away from the quota than 
was when the data was originally collected.
    Compounding the inaccuracy of the data, that there were 
northern states that catch sea bass inside state waters, and 
they decided to issue over 1,000 new, additional licenses. All 
of these fish, although caught only in state waters, were 
accounted for against the Federal quota.
    If there is a stock problem, then with the Magnuson Act on 
the table, there should be an allocation based on prior history 
before the moratorium was even put into effect as has been done 
in other fisheries. Such an action will alleviate sea bass 
mortality by working down from a fixed number. It would also 
eliminate the excess gear at the same time.
    This would allow National Marine Fisheries Service to find 
out if the problem was escalating. Therefore, compensation for 
idle gear from those who were originally in the fishery should 
be sought. The data is available from logs as far back as 1988. 
We all know there is a growing recreational fishery which has 
grown enormously in the recent years, along with the use of 
electronic devices being so precise that it has even increased 
the catch rate dramatically. No licenses are required.
    There are other fishing industries that have regulations in 
question. These fishermen all need to be addressed for the sake 
of fish and the fishermen.
    There has been a conflict of interest by user groups for 
many years, and I submit this needs to change in order to bring 
the fish, not the fishermen to the front of the line. There 
should be an understanding that a commercial vessel does not 
get paid if it does not land a significant amount of product.
    A charter boat needs a sufficient amount of fish to please 
its customers, and the private sector needs enough fish to 
please themselves and to consume. There is a staggering and sad 
amount of money and effort that in the past has been used and 
misused in this ongoing conflict. If this effort were spent to 
initiate better relations and conservation, all would benefit.
    [The prepared statement of Mr. Harrington follows:]

 Statement of Kerry Harrington, Commercial Fisherman, Berlin, Maryland

    I am before you today, and submitting to you this written 
testimony, in hopes that you will understand and rectify the plight of 
the commercial fishing industry.
    There are many areas that have been effected from new regulations, 
closures, quotas, limited entries, etc. The list goes on and on.
    It was my understanding that all of these ``actions'' were 
implemented based on good, sound data to support the changes. However, 
as we all know, once the data is actually compiled, it is antiquated.
    It is not and never has been the intent of the fishing industry to 
annihilate any species of fish. I believe I can speak for the Industry 
as a whole that we simply want to find a cure to the problems so that 
our Industry is not annihilated, affecting the livelihood and economy 
of many.
    It is my opinion, that in order to cure the problems, it is 
necessary that we realize the impact in both the fishery and human 
sectors. A challenge of this sort requires an in depth understanding of 
each fishery both by Fisherman and Regulators. We must have joint 
participation to create a balanced outcome. It is crucial that we 
remember the many variables and be careful not to make rules and 
regulations so stringent as to create animosity within.
    As the Magnuson Act comes up for review, it has give us time to 
realize changes that need to be made. I admit that I do not understand 
all of its content, but through joint cooperation, positive evaluations 
that are Pro Fisherman and Pro Regulators can be met.
    In my 20+ fishing career, there have been many trials and 
tribulation, but I must state that regulations over the past several 
years and obvious discord between the Industry and the Regulatory 
agencies have caused many talented and caring Fishermen to believe 
their livelihoods were the dying species, not the fish.
Quotas
    If you don't go fishing, then you will loose your fair share of the 
quota allocated. That translates into Fishermen fishing overtime or 
fishing when they should be making safety repairs to their vessels. 
Fishing when they are exhausted for fear that they will loose part of 
their quota. Under these Rodeo Trip regulations, it has been proven 
both crews and vessels are in jeopardy. They are going to sea in unsafe 
conditions with improperly maintained vessels.
    Reduction in fishing has also impacted adversely ice plants, fuel 
companies, tackle shops, retail shops, restaurants, hardware stores, 
dock laborers, etc.
    Sea Bass fishing is or was my primary fishery for many years. It 
also has been were I have taken the greatest financial loss, 
approximately 80%.
    I first question the data to which the NMFS derive that Sea Bass is 
a faltering stock? There have been several issues in this fishery, 
which warrant question in the process of the regulations. There were 
suppose to be studies done over a period of time based on size. Instead 
there were rapid increases without using a reasonable time period for 
the study. Without a realistic agreed upon time period for a ``study'', 
say three years, it is impossible to determine if a ``regulatory size'' 
would have a positive or negative impact on the mortality rate of the 
fishing stock. Logic dictates that such a study would require a period 
of time equal to at minimum, the cycle of a ``Sea Bass Growth''. It was 
my understanding that three years was originally designated. However, 
the change from 9 inches to 10 inches was over a six (6) week period of 
time
    In 1996 there was a moratorium put on the Sea Bass licenses. 
However, there was a loophole that allowed anyone who could prove they 
caught one pound of Sea Bass could acquire a Federal permit. I still 
question the fairness and logic of that ``act''.
    What this did was allowed an increase in the number of people 
fishing for Sea Bass; in a fishery that is ``supposedly'' already in 
trouble! Now there were more Fishermen taking away from the quota than 
when the data was originally collected. Compounding the inaccuracy of 
the data, there were Northern states that catch Sea Bass inside States 
waters and they decided to issue over a thousand new or additional 
licenses. All of these fish, although caught only in state waters were 
accounted for against the Federal quota.
    If there is a stock problem then with the Magnuson Act out on the 
table there should be an allocation based on prior history before the 
moratorium was even put into effect, as has been done in most other 
fisheries.
    Such an action would alleviate Sea Bass mortality by working down 
from a fixed allowed number. It would also eliminate the excess gear at 
the same time. This would allow the NMFS to find out if the problem was 
escalating. Therefore compensation from idle gear from those who were 
originally in the fishery should be sought. The data is available from 
logs as far back as 1988.
    We all know there is a growing recreational fishery, which has 
grown enormously in the recent years along with the use of electronic 
devices being so precise it has even increased the catch rate 
dramatically. No licenses are required.
    There are other fishing industries that have regulations in 
question. These fishermen all need to be addressed for the sake of the 
fish and the fishermen. There has been a conflict of interest by user 
groups for many years and I submit this need to change in order to 
bring the fish, not the fishermen to the front of the line.
    There should be an understanding that a commercial vessel does not 
get paid if it does not land a significant amount of product. A charter 
boat needs a sufficient amount of fish to please its' customers and the 
private sector needs enough fish to please themselves and to consume.
    It is staggering and sad the amount of money and effort that in the 
past has been used and misused in this ongoing conflict. If this effort 
was spent to initiate better relations and conservation all would 
benefit.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Harrington.
    Mr. Harrington. Thank you.
    Mr. Gilchrest. Our purpose here today, and I am going to 
ask a few questions of our witnesses, was to try to understand 
as a small part of the reauthorization of the Magnuson Act how 
we could appropriately in the best possible way know how many 
fish are out there. How do we collect that scientific data and 
collect it in a timely fashion, not having it rushed like Mr. 
Harrington suggested here with sea bass, but conduct a survey 
over a period of time so that the data we collect is 
appropriate and is accurate and it is reliable?
    A sufficient number of surveys so that there is not a long 
period of time between the surveys. We are going to make an 
attempt. I know when you see this fellow up here that only owns 
a canoe, and maybe I should go out with the gentleman who 
collects horseshoe crabs. In case I lose the next election, I 
can enter the fishery.
    [Laughter.]
    Mr. Gilchrest. Maybe I will go into some other line of 
fishery.
    I made this comment to farmers that I spoke to last week, 
about 1 week ago about this same time, that I am a former house 
painter, high school teacher that ran for Congress on a whim, 
got elected. I am now in a position to affect your incomes, and 
there are other people like up there in Washington.
    And there are not very many commercial fishermen in 
Congress or recreational charter boat captains in Congress or 
people that deal with ecosystems or essential fish habitat. 
They are a collection of people like you see in all walks of 
life affecting your bottom line, your taxes, your mortgage 
rates, the amount of fish you can catch, and so on.
    So I guess the point I am trying to reach out here to you 
is that we are out here to try to collect information so that 
when we reauthorize this act this coming year we do it with the 
kind of information that is necessary to make it equitable for 
everyone, so that we do have sufficient funding and the kind of 
people that are necessary to do the surveys to collect the 
data, and that the surveys are done properly and in a timely 
fashion; and that we would like to vastly improve the amount of 
cooperative effort that we have discussed today between the 
scientists, National Marine Fisheries Service, the commercial 
industry, fishermen, recreational industry, to be a part of 
that data collection so that we can all share and learn from 
each other.
    And then when you have the appropriate data in a timely 
fashion, that those quota allocations all around the country 
are justly and equitably distributed. You know, Dr. Sissenwine 
said today that they collect the data and give it to the people 
that make the political decisions, and that is pretty much 
exactly correct.
    So what we are going to attempt to do, and this will not be 
the last time that we meet and talk to all of you, I know the 
last time Jack and some people were in Washington and they had 
real difficult questions, I suggested that we tour the Capitol 
so I could show them the art work.
    [Laughter.]
    Mr. Gilchrest. I think they appreciated the art work. I 
know Jack did, but then we did get around to some of those hard 
questions which we are seeing here this morning.
    Mr. Harrington, you made some comment about a conflict of 
interest within the system. Can you elaborate on that?
    Mr. Harrington. Well, it seems like the amount of studies 
that were implemented toward the sea bass industry, the 
fellow--I could not get his name. He is sitting in front of his 
name tag. It was the gentleman that was in the center of the 
first group.
    Mr. Gilchrest. Mr. Sissenwine.
    Mr. Harrington. Yes, OK. Anyway, it seems as the data that 
was derived was not really sufficient enough to have put such a 
rigid quota system and reduction on the sea bass fishery that I 
can understand, and it has caused a major effect to anybody in 
the mid-Atlantic area, that is, especially that is in that 
fishery.
    I mean, I have done that fishery since 1980 here in this 
town, and prior to that also with other people, but given the 
magnitude of a reduction of my own personal income, I think you 
have got to take that into context of where do you go from 
there and what do you do with your gear.
    I have idle gear. I have gear that has been sitting on the 
dock for over two and a half years now. It is bought. I have 
got gear that I borrowed money against. It is the gear that 
made my ability to pay the debts that I carry. And now I have 
lost that resource.
    So not only myself, but other people that are in the sea 
bass fishery. The compensation toward that would be go back in 
history. Look at the log books because I thought that was what 
we were giving that information for, as a tool for regulators 
to look at and for you to look at and find that there has been 
enough data compiled that is a compensation.
    If you are going to take that kind of a drastic reduction 
in your income, as do farmers, they pay a farmer not to plant a 
field because they have got too much access for various 
reasons. And this should be implemented in the fisheries as 
well. Because this is my last chance to put my boat on the 
market, is for the February issue of ``National Fisherman'' 
because I do not see any way that I can sustain myself through 
this winter.
    I have lost two fisheries. I have lost my summer fishery, 
which begins actually in the spring for the black sea bass, and 
my winter fishery, which was the dog shark fishery, which has 
been alleviated also.
    And then I had an option for my long line fishery, which I 
am a participant in, and that would be Florida, from the Keys 
all the way up the State of Florida, and that has been 
alleviated.
    So I have lost all of my stones to step off on to try to 
cure the problem. I mean, that is my own personal plight, but I 
mean, it probably has major effect on fish houses, and Jack 
Colbourne spoke earlier of his plight, I mean, the reduction in 
his fishery, in his packing house.
    And that is shown across the board. The more reductions 
that we have in these, I can elaborate on what I was talking 
about in my piece here, that you take a fishery that is 
supposed to be in trouble, a sea bass fishery, and at the last 
moment somebody who caught one pound is allowed to catch as 
many fish as I am, and then it gets antiquated even worse 
because the state fishery heads come into the picture and over 
1,000 more licenses have been issued.
    It seems to me that somewhere along the line the Federal 
National Marine Fisheries Service or the Federal Government has 
to step in and supersede somehow to say was there an excess of 
sea bass when they put these closures into effect or was there 
a resource that was not tapped into because prior to the 1996 
moratorium, the New England states did not have anything on the 
books, less than 5 percent. And now in the fall we have a 
reaction of 62 percent I think it was this year in a 2-month 
period.
    So I think they have to reevaluate their studies on sea 
bass fisheries.
    Mr. Gilchrest. Mr. Harrington, part of the reason for the 
hearing today is to show how we can improve data collection. So 
you feel that on black sea bass, for specific example, the data 
that has been collected which goes to determine the allocation 
was not accurate, and then the allocation distribution was not 
fairly allocated.
    Mr. Harrington. Yes, that is correct because if you go by--
    Mr. Gilchrest. And part of the problem as I understand you 
are saying is that the state fishery quota in Massachusetts is 
part of the allocation problem in the long run?
    Mr. Harrington. Yes.
    Mr. Gilchrest. Because there are only so many fish, whether 
it is in state waters or Federal waters.
    Mr. Harrington. Yes, like the gentleman said earlier, those 
fish, they do not know that there is a boundary there. Those 
fish go in state waters, and you mentioned yourself the 
tributaries. They go up inside and they spawn, and there is an 
in-shore fishery in that area.
    Mr. Gilchrest. So a vastly improved survey, scientific 
collection of data that dealt with the size, the age, the sex, 
et cetera, would--
    Mr. Harrington. Location also.
    Mr. Gilchrest. Location. OK.
    Mr. Harrington. I think you will find that there is a stock 
of fish and I do not know if there is any tag fish that they 
have caught in the New England area that has come from this 
area. I think their stock is the stock that goes northwest and 
southeast. They travel on shore and offshore just like they do 
here.
    Our fish are bound to coming in shore in spring and 
spawning and making their way as the water temperature changes 
and back off the offshore areas.
    Mr. Gilchrest. You are saying that there is a distinct 
population between New England and--
    Mr. Harrington. I think you will find the migratory routes 
are finite and not coast-wise. I think you will find if they do 
more studies you will find that the fish that are coming from, 
say, the Carolina area or off of the southern part of Virginia 
and migrating up the coast, say, up to New Jersey is not the 
same stock.
    This is where the scientists come in. They can follow that. 
They can follow the tag fish, but I think you will find that 
there is more of a stock coast-wise that works the continental 
shelf and then migrates to the northwest in shore.
    Mr. Gilchrest. So the sea bass that you catch here you are 
saying are not likely to be the same.
    Mr. Harrington. It is probably not part of the same stock 
that they are catching off of the New England area.
    Mr. Gilchrest. That is interesting.
    Mr. Harrington. And if they are relatively a new fishery--
    Mr. Gilchrest. How would you suggest that we find that 
information out?
    Mr. Harrington. I think what the fellow said earlier about 
the tag-in programs, and I think you will find that the fish 
that are tagged on the in shore, inside state waters eventually 
end up somewhere out on the edge in the deeper water in the 
winter months, and that is where it would probably be retained 
from the trawl service.
    You know, you could probably have a trawl surveyor. Anyway, 
you will find a trawler will be catching that same species to 
the southeast and off on the continental shelf.
    Mr. Gilchrest. So this kind of information would alleviate 
the problem that you describe about the allocation.
    Mr. Harrington. It would help that, and also if it came 
down to where it is now, it's already been fixed. My problem is 
I need a quicker cure for the problem because we need to find 
out whether or not where I am financially--this whole ordeal 
has been going on for two and half years.
    Personally, I will not survive the winter. I have gotten to 
this point in hopes that some kind of compensation of some sort 
will be recognized that no one of us can absorb that kind of 
reduction in our income, and that is my personal, my plight, 
but it is still in the future of the fishery for my son to take 
it over, the boat that I built, and that is kind of a glimpse 
of light in the dark now.
    Whereas something that you strive so hard to make ends meet 
with, and it just gets taken away, and it needs to be addressed 
in such a fashion that there is a viable resource out there, 
and there are many users, and like this gentleman next to me 
said, Richard, you know, the users are increasing daily, and 
the magnitude of recreational fishermen also have come into 
play. So it all has to be considered in the stocks and the 
alleviation of that.
    But by the same token you have to have enough product in 
order to sustain yourself as a commercial fisherman.
    Mr. Gilchrest. That is what we are trying to assess here.
    Mr. Harrington. I am sure that everybody I know in this 
room that is a commercial fisherman is willing to do whatever 
it takes survey-wise to shed some more light on the reality of 
where the stocks are, as well as a joint cooperation between 
sports fishermen and commercial fishermen. I think that right 
there, the combination of the two, and the bickering and the 
conflict that has been going on for years, and in fact, most 
commercial fishermen love to sport fish, too, and we do. We do 
them both.
    I used to do the circuit. I did sports fisherman before 
commercial fisherman. So I know both ends of the spectrum.
    Mr. Gilchrest. Thank you, Mr. Harrington.
    Mr. Harrington. Thank you.
    Mr. Gilchrest. Jack, do you have any recommendations on 
improving data collection from HMFS' perspective? And do you 
have any specific issues that you see could be improved as far 
as the commercial industry's relationship as far as you know it 
here in Maryland with the National Marine Fisheries Service?
    Mr. Colbourne. Well, I think we need to be part of the 
product studies and the joint ventures just like Massachusetts 
and Maine. I think we need to be part of that.
    I know the National Marine Fisheries had a vessel called 
the ``Albatross,'' and we need to have commercial fishermen 
fishing the same areas side by side tows.
    Mr. Gilchrest. Has that happened?
    Mr. Colbourne. Well, supposedly whenever it does happen--
yes, it has happened--it seems as if the commercial vessel 
always greatly out catches the ``Albatross.''
    Mr. Gilchrest. Is there a reason for that?
    Mr. Colbourne. Yes, there is a reason. Because commercial 
fishermen, well, they are better fishermen. They probably have 
better gear, and they probably know a whole lot more about what 
they are doing.
    Mr. Gilchrest. Better gear than the Federal Government?
    [Laughter.]
    Mr. Colbourne. Well, I know some fishermen that will put up 
against anybody the government can hire, but these guys have 
done this all of their life, and a lot of them, their fathers 
did it; their grandfathers have done it in areas, and the way 
they hang their nets and the way they tow, it is just a lot of 
tricks to the trade, and I think they could be a tremendous 
asset to the National Marine Fisheries if they would put a 
little more faith in the commercial people on these surveys 
instead of basing everything on the ``Albatross.''
    Mr. Gilchrest. When the commercial fisherman goes out with 
the ``Albatross,'' what happens? Does the commercial fisherman 
that catches more fish, is that taken into consideration as far 
as you know?
    Mr. Colbourne. Well, it depends on who you ask. I have 
heard that they do take it into consideration. I have heard 
that, well, the best information we have is what we put 
together from the ``Albatross.'' So this is what we have to go 
by.
    So I think they have to be a little more flexible and 
realize that we have a little bit more expertise maybe at some 
types of fishing than what they have.
    I also agree with the tagging program that maybe they need 
to tag more fish and it coincided with commercial and the 
charter boat fishery, the recreational fishery. They need to 
tag more sea bass and see if these fish do migrate up and down 
the coast.
    I am like Kerry. I think the stock to the northeast is a 
different stock than what we have here.
    Mr. Gilchrest. To your knowledge, Jack, has anyone looked 
into that?
    Mr. Colbourne. I do not know, but if you remember back in 
August we mentioned that to Mr. Hogarth, and at that time, he 
not only agreed to look into that, but he told us that he would 
do or have done a black sea bass survey joint venture like 
we're talking about, which from August the 1st until now I do 
not think anything has ever been done except the excuse was 
used that we do not have the money.
    But the good doctors sitting here before me said they had 
plenty of money.
    [Laughter.]
    Mr. Gilchrest. That is the first time I have ever heard 
anybody say they had plenty of money.
    Mr. Colbourne. Well, you were asking if they needed more 
funding.
    Mr. Gilchrest. Right.
    Mr. Colbourne. And I think the answer was--correct me if I 
am wrong--that there was necessary funding available to do the 
studies.
    Mr. Gilchrest. We will look into and get back to you, Jack, 
and the rest of the witnesses on the issue of the possible 
potential for the two different stocks.
    Mr. Colbourne. But the think that like Kerry and myself are 
trying to reiterate is that they have pushed us to a point that 
the fishery is going to collapse. The commercial fishery is 
going to collapse.
    Now, if they protect it to the point that the fishery 
collapses, what have you accomplished? I do not think the 
Magnuson Act was created to destroy the American fisherman.
    Mr. Gilchrest. Jack, we are going to do what we can to 
insure a viable fishery for the fish and for the commercial 
fishermen, recreational fishermen, and for the consuming 
public. I do not have all of the answers at this point, but I 
think one of the key pieces to this puzzle, one of the two key 
pieces of this puzzle for the fisheries is good information 
about the fish stock, and an equitable allocation of that 
resource.
    And we will go to every length to assure that that happens 
when we reauthorize the Magnuson Act, and we will fight tooth 
and nail to get the appropriate funding for the data 
collection.
    Mr. Colbourne. Well, we appreciate all that you do and that 
you have tried to do for us in the past, and you have done for 
us in the past.
    The last thing that we commercial fishermen want to do is 
to annihilate the fishery because we are going to lose it all. 
I mean, we are not like a recreational fishery. If he loses the 
fish, he can go bow hunting. If we lose the commercial fishery, 
we have lost it all.
    So the last thing we want to do is annihilate any fishery.
    Mr. Gilchrest. All right. Well, thank you, Jack.
    Mr. Colbourne. Thank you.
    Mr. Gilchrest. Just a couple more questions. Mr. King, the 
whole issue of data collection and cooperation between the 
people that do the fishing and the people that do the 
scientific study. It seems from your testimony that there is a 
good deal of cooperation and an ongoing relationship between 
Maryland fishermen and watermen and the Department of Natural 
Resources.
    How important is that relationship to good data and 
appropriate allocation of the quota?
    Mr. King. Extremely. In days gone by commercial harvesters 
would report their catch and effort to the department, and the 
department would then make management decisions based on that 
reporting, and then we would be accused of making decisions 
with bad data by the harvesters.
    I think those days are gone forever. More and more we see 
anxiety and extreme interest on the part of harvesters to make 
sure the department is using the best available data, and I 
think they are much more willing to provide that data today 
than they had been in the past.
    We are not all the way that we need to be yet, but it is 
moving in that direction, and we are much better off today 
using harvester's data than we were in past years.
    Mr. Gilchrest. When that relationship is established with 
certain watermen for a certain fishery, whether it is striped 
bass or crabs or whatever, is there an ongoing discussion about 
where to go to collect that data or harvest the rockfish, let's 
say, for example, in a certain tributary at a certain time at 
night? Is there a cooperative effort whether you go out at two 
o'clock in the morning or two o'clock in the afternoon?
    Mr. King. Yes, more so than in the past, but most recently, 
for instance, with the blue crab fishery, we were conducting a 
peeler pot study, and so the commercial crabbers volunteered to 
take us to where they would go because, as has been stated 
here, the commercial harvester in almost all cases, can do a 
better job of it than the state biologist.
    And so we took them up on that, and then they did serve as 
our guides in collecting that data and setting those pots.
    Mr. Gilchrest. You mentioned trip ticket catch system, and 
Maryland is a pilot state for that. What exactly is that?
    Mr. King. Well, through ASMFC there is this Atlantic Coast 
Cooperative Statistics Program where the states will be 
collecting and databasing consistent, compatible data so that 
we can look at the states coast-wide and be on a level playing 
field.
    And so we were funded to establish a trip ticket system on 
the ocean side as a pilot project for that program.
    Mr. Gilchrest. So Maryland is the only one doing it right 
now?
    Mr. King. Maryland is the only one funded by ACCSP. North 
Carolina has a trip ticket of sorts in place, and has for a 
couple of years, but currently they are not in the program. 
They are not in the system. So this trip ticket system was 
designed specifically for this coast-wide program.
    Mr. Gilchrest. I see. In collecting the data for a series 
of species, whether it is crabs or striped bass or perch or 
whatever, in your analysis of understanding the number of fish 
that are out there in any particular stock, is there an effort 
to understand the impacts on essential fish habitat in all of 
the various tributaries, tidal ponds, tidal basins, estuaries?
    I guess what I am asking: is there some understanding if 
you are going to have a healthy fishery that there needs to be 
areas for these fish to not only spawn, but for these fish to 
have in their habitat enough protection with bay grasses, 
enough food for them, for example, to eat between, let's say, 
striped bass and menhaden? Is there some type of an approach to 
look at the food web in the system and understand how it works 
along with just collecting the data on the species?
    Mr. King. There is an appreciation. We are in the infancy, 
I think, of being able to apply what understandings we do have 
and then further to put in the protective mechanisms to make 
sure that those areas are preserved through ASMFC, again, in 
the case of striped bass menhaden, the predation aspects of 
multi-species migrant, that is being investigated now.
    In Maryland we decided to start relatively small. We have 
taken a resident species, yellow perch, and we have written a 
draft fisheries management plan, but it is actually a yellow 
perch management plan of which fisheries is one component. The 
other component is habitat.
    And so as part of that plan, we are setting up a system 
where the essential or critical fish habitat, particularly the 
spawning and nursing areas, may be candidates for a special 
state water use classification, and that would require 
regulatory action and enforcement by other units of state 
government or units other than the fishery service, other than 
the Department of Natural Resources.
    So we have taken a species for which we are wholly 
responsible in Maryland, a resident species, not 
interjurisdictional, and are trying to apply what we know to 
date about essential fish habitat, apply it to this individual 
species as a first step in trying to get a handle on ecosystem 
management for the benefits of fish production and fisheries.
    Mr. Gilchrest. It sounds exciting.
    Mr. King. Well, it is a first step, but I think--
    Mr. Gilchrest. That is being done with yellow perch, and it 
is not being looked at with menhaden, for example?
    Mr. King. At a regional level.
    Mr. Gilchrest. I see.
    Mr. King. At an Atlantic Coast level it is for striped 
bass, and menhaden specifically.
    Mr. Gilchrest. I see. Thank you very much.
    Mr. Novotny, you made a comment about the composition of 
the councils.
    Mr. Novotny. Yes.
    Mr. Gilchrest. Do you have a recommendation?
    Mr. Novotny. Yes. I would like to see the councils more 
equally divided. Right now there is a tremendous bias 
commercially with people on those councils, and I feel as 
though the recreational sector, which has really grown in the 
last decade or so, should have fair and equal rights to the 
outcome of their fishery.
    Right now it seems like commercial comes first, and then it 
is recreational with the votes out of most of the councils. 
Just one instance is the flounder, summer flounder stocks. For 
some reason the distribution of summer flounder is 60 percent 
commercial and 40 percent recreational.
    We do not feel as though that is very fair. It is not fair 
and equitable for the recreational fishery to only get 40 
percent when the commercial guys get 60 percent. A 50-50 split 
would be fair and equitable, and that would be fair and 
equitable in all fisheries.
    The same way with the bluefin tuna, which is managed by 
NMFS. You know, once again, that is not fair and equitable. So, 
yes, we would like to see a more fair and equitable proportion 
with recreational, commercial, and even conservationists on the 
council who will speak on behalf of the fish.
    The recreational fishermen generally will speak on behalf 
of the fish and put the fish first. Unfortunately sometimes 
when there is an economic value put on a stock, you know, the 
commercial might have a tendency to not be as cautious and not 
be as conservative as what a recreational fisherman would be or 
even a conservationist.
    And if we are going to err, we should err on the side of 
the fishery and not on the side of the fishermen. And I know 
that the gentleman here and the gentleman here are having a 
hard time with the fishery, and you have got to realize our 
fisheries, all of our fisheries, are a finite resource, and we 
must gauge them.
    I mean we do not want to have happen what happened up in 
Georgia's bank where they enclosed that entire fishery to 
commercial fishing. Those fish, those captains up there 
actually blamed NMFS for allowing that to happen, and the 
reason they blamed NMFS for allowing that to happen is because 
they allowed them to catch too many fish up in Georgia banks.
    I will make a statement here. I know it is not going to be 
liked by a lot of people, but I will say something afterwards. 
The marine resource owes no one a living, just like the United 
States does not owe a farmer a living. You know, it is a trial 
and error. You know, they put up with weather conditions just 
as though the commercial fisherman.
    But by saying that, they have just as much right as being 
in the fishery as the recreational fisherman, and I do not deny 
them that. But, once again, we all must get together and try to 
be cooperative with the harvest of our fisheries.
    Several years ago we met with the commercial fishermen here 
in Ocean City, and we were concerned about the summer flounder 
fishery, the recreational side, and we proposed a closure of 
the outside, the inlet to Ocean City because we thought too 
many fish were getting caught up even before they had a chance 
to come into the back bays here in Ocean City.
    So through negotiations, we worked out an arrangement where 
the trawlers would keep them all off of the sea buoy out there 
and hopefully allow some more flounder to come into the back 
bay. So with this kind of cooperation, I think we can work 
together and get some meaningful fishery management plans where 
everyone is protected.
    And once again, with Mr. Harrington here saying that they 
opened that sea bass commercial fishery if you showed one pound 
of fish was, I feel, totally wrong, you know. Once again, you 
are allowing people to come into a fishery that is already in 
need of conservation, and I do not think that was the right 
step to do.
    Mr. Gilchrest. Thank you very much, Mr. Novotny.
    Any other comment by any of the witnesses?
    Mr. Harrington. Can I?
    Mr. Gilchrest. Yes, sir, Mr. Harrington.
    Mr. Harrington. I did not touch base on there are other 
fisheries that are out here, such as long line fishery. 
Congress, I think, proposed a buyout at one point, especially 
in the southern sector, which I am not even--I mean, I fished 
in the southern sector, but I chose the northern because I was 
up here more frequently.
    I do not know where that went to, and I proposed it to come 
up in a recreational fisheries meeting. If they assumed that 
the long line fishery is the demise of the offshore fishery as 
far as marlin and sailfish and various species, highly 
migratory species as that, then under the circumstances where 
giant areas are being closed from Key West all the way up to 
South Carolina, under those circumstances, I think there is 
enough money generated and actually wasted in conflict, whereas 
if that money was used as a proposal, as a buyout, I think you 
could see that a commercial fisherman in that category as far 
as long line fishery goes, there would be some consensus to 
sell out, and that way that would never be allowed to go again.
    The license would be actually consumed by the sport 
fisherman world, and they could do with them as they want, burn 
them or whatever, but be scrutinized for being in that fishery 
is wrong because the data, as I said in there, the way it is 
antiquated sometimes, it comes up shy of truthfulness.
    But if that be the case, I mean, there are fishermen out 
there; there are long liners, and myself included, that have 
said, OK, well, if that be the case--but most of our long 
liners, their biggest fleet has left the country. Yet they are 
still catching and selling back into our country. They are not 
regulated in other countries.
    The ironic part about it is that they have created in other 
countries a directed marlin and sailfish fishery for the 
consumption of United States citizens. I went to Vermont last 
year, and there it was right there in a grocery store: blue 
marlin, white marlin, and sailfish. I could not believe my 
eyes.
    If I catch one of them, I go to jail here in this country. 
Yet it is allowed to be sold in this country right in any 
public place. You can go to the Philadelphia fish market, and 
in the Philadelphia fish market there are other size fish that 
come from out of the country, sold in our country because they 
do not have the regulations that we do.
    Mr. Gilchrest. We might want to have you, Mr. Harrington, 
give us a list of places that we as a Subcommittee can visit.
    Mr. Harrington. Yes, yes.
    Mr. Gilchrest. Whether it is Vermont or Philadelphia.
    Mr. Harrington. Yes, yes.
    Mr. Gilchrest. Actually I am relatively serious, but we can 
take a look at some of these imports that you are discussing, 
and the last thing we want to do--and it generally happens 
whether we want it to or not--is when we pass laws, we have 
this unintended consequence that you are describing, which we 
want to eliminate that as much as possible this time.
    There is not a total separation, and it has been discussed. 
There is not a total separation between what this country does 
in a necessary way for agriculture as far as set-asides. If you 
leave this in warm, spring grasses and it attracts birds, you 
are going to be paid for it. If you plant loblolly pines or 
white pines in this buffer to protect water quality, you are 
going to be paid for it.
    If you sell your right to build so it will always remain 
open space or agriculture, you will be paid for it. So some of 
the closures, some of the sanctuaries, marine protected areas, 
these kinds of things, the issue always is getting enough 
support to allocate or appropriate sufficient funds in order to 
do that.
    But agriculture has been and is now in a fairly critical 
stage because of the amount of competition it is getting from 
the international community where you did not have that before.
    Mr. Harrington. I can add to that. It goes back to that 
corridor. I think with the amount of increased participation in 
the sport fishing world, Mr. Novotny said, you know, and the 
numbers are superseding anything they can even imagine; a small 
percentage given from that resource could offset the detriment 
of the commercial fisherman end of it.
    Do you understand what I mean? You can take it to actually 
propose a portion of that. That would offset, which actually 
would gain ground on the sport fisherman world because it is 
just phenomenal.
    If you have ever been out there in the summertime tuna 
chunking, you go to an area and there are 500 boats within a 
ten mile radius. That is phenomenal.
    Mr. King. Spending a lot of money.
    Mr. Harrington. Spending a lot of money. It is true, but it 
is not money we are dealing with. We are dealing with fish.
    Mr. Gilchrest. We are dealing with fish.
    Thank you very much, Mr. Harrington.
    Mr. Harrington. Thank you.
    Mr. Gilchrest. I think at this point, first of all, I want 
to thank all of you for coming. You have been very articulate 
and sophisticated with the information that you have given us 
this morning, and we will make good use of it, but at this 
point we have about 10 minutes. So if there is anyone that 
wants to ask a question, if you could come up to the mic right 
over here.
    Kevin, could you raise your hand?
    Right near Kevin and ask a question from the mic.

          COMMENTS OF MONTY HAWKINS, BERLIN, MARYLAND

    Mr. Hawkins. Howdy, all. I am Captain Monty Hawkins, ``O.C. 
Princess,'' Ocean City, Maryland, party boat fishery.
    Captain Kerry, you spoke several times about--Captain Kerry 
Harrington, I should say--you spoke several times about the 
issuance of permits for the sea bass fishery. What was the 
effect of that? What happened to the number of pots that were 
in the ocean?
    Mr. Harrington. At what time?
    Mr. Hawkins. From the time they started the permit until 
that permit process was over, maybe a year. Did the number of 
pots increase?
    Mr. Harrington. On my part?
    Mr. Hawkins. No, no, no. Overall.
    Mr. Harrington. Oh, on the overall. What happened at first 
was the unknown, you start your season out to try to get your 
quota every chance you have.
    Mr. Hawkins. OK. Did the number of traps increase after a 
moratorium was declared?
    Mr. Harrington. Oh, absolutely because more people got into 
the fishery.
    Mr. Hawkins. By how much?
    Mr. Harrington. I do not know what it was. Massachusetts 
has increased their fishery.
    Mr. Hawkins. Not Massachusetts at all. Off here.
    Mr. Harrington. There was people. Whoever was not in the 
fishery, there was other people that got into the fishery that 
created and were buying pots and making pots.
    Mr. Hawkins. Did the number of pots double or triple or 
quadruple?
    Mr. Harrington. Oh, I do not know the exact numbers 
exactly, but it increased as far as there were more fishermen 
that got into it.
    Mr. Hawkins. It sure seemed like a lot more pots out there 
to me. After a moratorium was proposed, a lot of pots were put 
out there. I am very active in artificial reefs, and one of the 
net effects was more or less a bottom war kind of thing where 
trap fishermen were sighting bottom and get as much gear on 
good bottom as they could, and what happened was the artificial 
reefs got covered up with pots also by new entrants into the 
fisheries.
    At any rate I could go on and on about that. One of the 
things I specifically wanted to mention with the Magnuson Act 
is the collection of anecdotal evidence. We are trying to 
rebuild fisheries to what we had in the '80's, and, well, the 
sea bass fishery off of Ocean City here, if you rebuilt what 
you had in the '80's, you wouldn't be rebuilding to much. The 
fishery had already been trammeled by then. It could certainly 
stand a lot more than that.
    By collecting anecdotal evidence, you could ascertain 
overall ecological impacts from different gears over a much 
longer period.
    Mr. Gilchrest. Monty, who would you collect this anecdotal 
information from?
    Mr. Hawkins. Guys who were a lot older than me.
    [Laughter.]
    Mr. Hawkins. Really, there is--
    Mr. Gilchrest. Are you recommending collecting anecdotal 
information from recreational commercial retired fishermen?
    Mr. Hawkins. Absolutely, both sides, yes, both sides, yes. 
And it needs to happen up and down the beach. I mean, there are 
probably men in this room--
    Mr. Gilchrest. It might be a good idea for us sometime this 
winter or early spring or whenever we can get back over here to 
have not necessarily a formal hearing, but have a gathering in 
a room similar to this with a sent out agenda to discuss some 
of these specific issues that you are bringing up now, and one 
of which would be interesting anecdotal evidence from a 
historical perspective on a range of species that have been 
right off the coast of Ocean City.
    Mr. Hawkins. Well, we spoke earlier about monkfish. I have 
heard guys talk about gigging monkfish in this back bay back 
here when they were a boy. Now, that does not happen anymore. 
It seems like the fish have moved off further and further and 
further until now you have got to go 30 fathoms to catch one.
    Mr. Gilchrest. So there was monkfish in Assawoman Bay?
    Mr. Hawkins. Yes, sir.
    Mr. Gilchrest. Very interesting.
    Mr. Harrington. There still is.
    Mr. Gilchrest. Is there?
    Mr. Harrington. Yes, there still is. If you ever had them, 
then you go to the back bay, but there has been some 
alterations in the Indian River inlet in the back bays, but all 
of the back pockets that run back behind the ghost station, we 
used to go back there, and there would be 30, 40 with their 
heads stuck up on the bank, you know, and we would come over to 
the dock where we would keep the fish land dock and have them 
catch there. So they are still around.
    There have been some alterations, you know, in their 
resource.
    Mr. Hawkins. Right. Time is very short, and I am sure there 
are a lot of things that need to be said, but the live bottom 
habitat that we have off our coast here, I mean, we know more 
about the chemolithic autotropic hyperthermofiles in the 
deepest part of the ocean vents--
    Mr. Gilchrest. All of us know more about that.
    Mr. Hawkins. --than we know--well, scientists know more 
about it than they know about near shore reefs here.
    I was in contact with the fishery ecologist from National 
Marine Fisheries, and he said, ``What reef ecology? We have got 
a lot of--that gentleman right there, if he is looking to work, 
buddy, I guarantee he could take on a guided tour all of our 
out-of-state reefs here that are off our coast. There is a lot 
of coral, a lot of mussel beds, a lot of bottom that is very 
important to the thriving of our local fisheries and our 
economies.''
    Mr. Gilchrest. Well, Monty, you bring up a good point, and 
maybe--well, not maybe. We will arrange a time when I do not 
know if Kerry will let us use his boat or, Monty, we can 
collaborate this effort along with some scientists from NMFS to 
go out there and take a look and see, and get some to the best 
that we can historical evidence about what the habitat looked 
like decades or 100 years ago, and how we can bring those reefs 
back.
    Mr. Hawkins. I strongly feel, and particularly in the sea 
bass industry, one of the earliest studies on sea bass was a 
tag study up in Massachusetts, and they grasped the 
significance automatically that the sea bass were habitat 
fidelity. They come right back like the salmon. They will come 
right back to the exact same spot or very close to it.
    Well, obviously if you allow this fish to flourish, and the 
more eggs you get, the better off the species do, and he comes 
right back, it is almost like an aquaculture, and that is at 
the very heart of why that gentleman is in trouble.
    The fishery is based from Cape Cod, I guess, to Cape 
Hatteras as one stock when, in fact, you could take six or 
eight square mile areas of ocean bottom, and that is the stock. 
And I base this on a lot of reading, a lot of research, and 
also personal tag returns.
    And finally, I think the time is very short. We do all we 
can to save all of the glamour species. Even the monkfish is 
being looked at.
    If you ask the knowledgeable people in this room what was 
in more trouble, a monkfish, a striped bass, a flounder or a 
red hake, I would think that everyone would say a red hake, and 
they are gone. These things are decimated, and there is not a 
blessed thing being done, nothing.
    Anyway, it needs to get looked at.
    Mr. Gilchrest. Before I leave I will get a list from you.
    Mr. Hawkins. All right. Thank you, sir.
    Mr. Gilchrest. Thank you.
    Yes, sir.

           COMMENTS OF CHIP CARPER, HEBRON, MARYLAND

    Mr. Carper. Congressman, my name is Chip Carper, and I have 
wondered why I felt so compelled to say anything, but I have an 
interesting perspective in that it--
    Mr. Gilchrest. Who is it?
    Mr. Carper. Chip Carper, with a C.
    Mr. Gilchrest. Carper.
    Mr. Carper. Yes, sir.
    I am very involved in the recreational fishing end of it, 
but I also have quite a few close friends, what I consider 
close friends that are commercial fishermen. I have ventured 
into commercial fishing at no charge to several of these people 
just to experience what it is that they do, to learn more about 
what they do, to learn more about long line bycatch and things 
that are of a concern to a lot of people here.
    And interesting enough, you mentioned places you would like 
to know about where you can find fish that are illegal for U.S. 
fishermen. You might want to try the Elto Bar Lodge at the 
Grand Canyon where I dined on blue marlin in April of last 
year.
    Mr. Gilchrest. What was the name of that?
    Mr. Carper. That is the Elto Bar Lodge.
    Mr. Gilchrest. Elto Bar Lodge.
    Mr. Carper. It's fairly famous. It is in a fairly large 
national park called the Grand Canyon.
    [Laughter.]
    Mr. Carper. I found that very interesting.
    They said they have it quite regularly, by the way.
    Mr. Gilchrest. We will make a call to them this afternoon.
    Mr. Carper. Yes. On more of a general note, I would just 
like to say that I think that something has been brought out 
here that is very critical. It becomes a fisherman issue at a 
certain point. Ultimately regulation has proven over time to be 
very detrimental to anyone that it impacts. I think overall, I 
think fishermen will be impacted the most greatly, whether they 
be commercial or recreational, because regulation oftentimes, 
as we have seen examples and there are examples here, is done 
as a blind poke at a very large problem.
    The ocean has been around longer than anyone in this room, 
and we know very little about the ocean in the big picture, and 
I think that as we make efforts to regulate, we need to make 
sure that the research and the regulations are in the best 
interest of the resource primarily, of course, but second, that 
as fishermen people begin to realize that these regulations 
will ultimately be imparted or put in place to the detriment of 
fishermen in general.
    And I think that the resource we are entitled to by our 
citizenship in the country and in the world in general because 
no one owns the oceans in the bigger picture; we own a very 
small segment within the 200 mile limit. And I think that the 
foreign fishing, we have done things to make efforts to protect 
our steel industry from foreign influences. I personally think 
that we need to make greater efforts as a nation to prevent our 
companies within the United States, i.e., Wal-mart, some of the 
larger retailers that sell products from countries, such as 
China, that are manufactured by prisoners in communist prisons.
    Those types of things continue to influence us as a nation, 
and the fish stock is just another example of that. These 
countries, Africa is a big country now in the long line 
fishery. Boats have left the United States, gone there. They 
will take whatever you bring to the dock, regardless of species 
or size, and they have a market for it and a large part of that 
market is the United States.
    Mr. Gilchrest. Thank you very much, Chip. It has been very 
helpful.
    Yes, sir.

         COMMENTS OF JOSEPH R. GOLDEN, BERLIN, MARYLAND

    Mr. Golden. Yes, my name is Joseph Golden.
    And I would just like to comment that when you get ready to 
reauthorize this Magnuson-Stevens Act that you should remind 
the National Marine Fisheries Service they are the National 
Marine Fisheries Service and not the New England fisheries 
service. They need to make studies of the whole coast, not just 
New England fisheries.
    And before they can go making laws to put people out of 
business, I think they ought to take their surveys before they 
make the law, not after they have made the law and they have 
destroyed these people's livelihoods.
    They need to take their surveys before they make the law. 
Before they come up with a total catch allowance, they should 
know what it is.
    That is all I have to say. Thank you.
    Mr. Gilchrest. Joseph, thank you very much. We will make 
every effort to follow your advice.
    I think this may be the last speaker. A gentleman from 
Easton, Jack Colbourne, he is a former Marine.
    Mr. Colbourne. He is OK.
    Mr. Gilchrest. He is OK.
    Mr. Goetz. How about Purple Heart?
    Mr. Gilchrest. Purple Heart.
    Mr. Colbourne. Better yet.
    Mr. Goetz. I served representing Maryland for two terms on 
the Atlantic States Marine Fisheries Commission, and I served--
I am sorry. I had it backwards--on the Mid-Atlantic Fishery 
Management Counsel. I served two terms. I served three terms on 
the Atlantic States Marine Fisheries Commission representing 
State of Maryland.
    I am a fisherman. I have been trying to be a fisherman all 
my life. I am not a commercial fisherman in any true sense, but 
I understand and sympathize with the problem.
    I have been in the food business, however, all my life, my 
younger life, not now, and the businesses that I have dealt 
with like red meat, like poultry, you name it, you had to make 
it. It did not just come because it was there.
    And that made it very difficult also to make a profit, very 
much so. So I sympathize with the profit aspect of this also, 
but remember your resource is there and you do not have to 
create it, make it or grow it.
    But the point I would like to make to the Committee is 
there was some discussion about a trip ticket approach. Now, 
when the ASMFC met in 1987 down in Florida, it was generally 
agreed by all the states from Maine to Florida that we should 
all have a trip ticket approach. Of course, it does apply to 
commercial.
    And what it meant was that the fishermen would come in with 
a detailed description of where he fished, what the conditions 
were. I mean, it would all be organized. All you had to do was 
check it off, and what he caught by species and by total.
    That was in a day we really did not have the technology 
that we have with computers today, and then it had to be mailed 
in or however it got to the office in Tallahassee. Well, today 
this is a simple matter. All fishermen have to sell their 
catch, and it has to go to the buyer. So the buyer and the 
fisherman make out their reports, and immediately it goes into 
the information held by the state or by the Federal responsible 
government.
    It just seems to me that this Committee should say the trip 
ticket would answer a lot of the questions that were being 
raised here today. If there are areas, for example, that are 
poor producers, we sure as hell are going to find out because 
fishermen are reporting that constantly. It would certainly 
relate to species and all the rest of it.
    But that is the main reason I wanted to come up and speak. 
I would like to see the Committee be more concerned about--this 
trip ticket approach, I think, as Maryland indicated, is in--it 
should not be because in 1987 we started on the path to do 
something about it, but it is at the beginning. So it is at a 
beginning point, and it could contribute significantly to the 
problems with the fisher.
    Mr. Gilchrest. Duly noted.
    Mr. Goetz. Thank you.
    Mr. Gilchrest. Duly noted, Mr. Goetz. Thank you very much.
    Participant. I just want to let him know that we have been 
filling them out for the last 7 years, seven or 8 years, daily, 
and they have got to either go in by the 15th or the end of the 
month, and they give you until the 15th of September, say, to 
the 15th of October, and that goes to National Marine 
Fisheries.
    In the last couple of years we have been able to take that 
daily trip and send it to our State of Maryland instead of 
filling out the monthly and the year report. We cannot E-mail 
it. It has to go by mail, or if it is not in, you do not get 
your license.
    Mr. Gilchrest. Thank you very much.
    Before we close, I want to make sure that I, first of all, 
thank all of the witnesses for coming here today, and I hope 
that you have a little time to enjoy Ocean City. That goes for 
the recreational boaters, the commercial fishermen, everybody 
in the room.
    My wife is back in the hotel not feeling well today. So she 
did not quite make it in the rain in Ocean City.
    But I wanted to make sure I thank Mayor Jim Mathias, Carol 
Jacobs, Wendy Bunting, Matt Needham, and I have on my list 
Kathy Bassett. That is my press secretary, and also the staff 
of the Subcommittee, and the Park Place Hotel that put up the 
Fisheries Committee today.
    We will take the testimony that the witnesses gave us this 
morning and those of you who came up to speak. The information 
that you have given us we will take very seriously. We will 
make it a priority to insure that this aspect of the 
reauthorization of the Magnuson Act, the data collection, the 
cooperation between those people who fish and those people who 
collect the data and those people who allocate the quota, it is 
our goal to vastly improve on that system.
    Thank you all very much and have a good day. The hearing is 
adjourned.
    [Whereupon, at 12:46 p.m., the Subcommittee meeting was 
adjourned.]

                                   - 



</pre></body></html>
